<html>
<title> - [H.A.S.C. No. 112-41] REPEAL OF LAW AND POLICIES GOVERNING SERVICE BY OPENLY GAY AND LESBIAN SERVICE MEMBERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-41] 

                       REPEAL OF LAW AND POLICIES 

                      GOVERNING SERVICE BY OPENLY 

                    GAY AND LESBIAN SERVICE MEMBERS 

                               __________

                      COMMITTEE ON ARMED SERVICES 

                        HOUSE OF REPRESENTATIVES 

                      ONE HUNDRED TWELFTH CONGRESS 

                             FIRST SESSION 

                               __________

                              HEARING HELD

                             APRIL 7, 2011


                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-812 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                     































                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Michael Higgins, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant

























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, April 7, 2011, Repeal of Law and Policies Governing 
  Service by Openly Gay and Lesbian Service Members..............     1

Appendix:

Thursday, April 7, 2011..........................................    37
                              ----------                              

                        THURSDAY, APRIL 7, 2011
REPEAL OF LAW AND POLICIES GOVERNING SERVICE BY OPENLY GAY AND LESBIAN 
                            SERVICE MEMBERS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Amos, Gen. James F., USMC, Commandant, U.S. Marine Corps.........     6
Chiarelli, GEN Peter W., USA, Vice Chief of Staff, U.S. Army.....     4
Roughead, ADM Gary, USN, Chief of Naval Operations, U.S. Navy....     5
Schwartz, Gen. Norton A., USAF, Chief of Staff, U.S. Air Force...     8

                                APPENDIX

Prepared Statements:

    Amos, Gen. James F...........................................    47
    McKeon, Hon. Howard P. ``Buck''..............................    41
    Roughead, ADM Gary...........................................    43
    Schwartz, Gen. Norton A......................................    51
    Smith, Hon. Adam.............................................    42

Documents Submitted for the Record:

    Hon. Howard P. ``Buck'' McKeon's Letter Dated April 4, 2011, 
      with Questions for and Responses by GEN George W. Casey, 
      Jr., USA, Chief of Staff, U.S. Army........................    57

Witness Responses to Questions Asked During the Hearing:

    Mr. Palazzo..................................................    63

Questions Submitted by Members Post Hearing:

    Mr. McKeon...................................................    67
    Mr. Wilson...................................................    67
REPEAL OF LAW AND POLICIES GOVERNING SERVICE BY OPENLY GAY AND LESBIAN 
                            SERVICE MEMBERS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, April 7, 2011.
    The committee met, pursuant to call, at 1:00 p.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. We are, I 
think, going to have votes in about 20 minutes. So we will try 
to get through as much as we can before we have to break before 
that.
    Today, the committee will receive a status report on the 
process for repealing the law and changing the policies 
governing the service of openly gay and lesbian service 
members. This past fall, I was troubled by the process employed 
to set the stage for repeal of the law known as ``Don't Ask, 
Don't Tell.''
    Following the December release of the Department of Defense 
report on the issues associated with repeal of Don't Ask, Don't 
Tell, there was none of the in-depth analysis that is so 
essential to sound decisionmaking here in the House of 
Representatives. As a result of the rush to judgment that 
bypassed this committee, Congress was denied the opportunity to 
ask questions and identify weaknesses in the repeal 
implementation plan. Now we are confronted by an implementation 
process that is moving quickly to completion and the education 
and training phase.
    Our primary interest today is to ensure that the senior 
leaders of each Service have the opportunity to communicate 
their current views about the implementation of repeal. Several 
of the Service chiefs have expressed reservations about the 
timing and potential impacts of repeal during a hearing before 
the Senate Armed Services Committee, and we want to understand 
if our military leaders remain concerned about the prospect of 
full repeal of the law.
    For example, General Casey, Chief of Staff of the Army, 
indicated that the repeal was a major cultural and policy 
change in the middle of a war that would add stress and 
complications for combat units. He stated that he felt 
implementation would be more difficult than what the Pentagon 
survey would suggest.
    General Schwartz, Chief of the Staff of the Air Force, 
recommended not carrying out any repeal until 2012 because of 
the strain of the high operations tempo on our forces. He 
stated, ``I do not agree with the study assessment that the 
short-term risk to military effectiveness is low.''
    General Amos, Commandant of the Marine Corps, stated, ``If 
the law is changed, successfully implementing repeal and 
assimilating openly homosexual marines into the tightly woven 
fabric of our combat units has strong potential for disruption 
at the small unit level, as it will no doubt divert leadership 
attention away from an almost singular focus on preparing units 
for combat.''
    Those comments were made a couple of months ago at the 
Senate hearing.
    The one outcome that must be avoided is any course of 
action that would put the combat readiness of our military 
forces at risk.
    Our witnesses today are the four leaders of our Armed 
Forces: General Peter Chiarelli, Vice Chief of Staff, United 
States Army; Admiral Gary Roughead, USN [United States Navy], 
Chief of Naval Operations; General James Amos, Commandant, U.S. 
Marine Corps; General Norton Schwartz, Chief of Staff, U.S. Air 
Force.
    General Chiarelli, we thank you for standing in for General 
Casey today and ask you to please extend our heartfelt 
condolences from all the members of the committee and the staff 
of the Armed Services Committee to General Casey and his family 
on the passing of his grandson, Jackson Ryan Casey.
    Admiral Roughead, you are moving closer to departure from 
your current position and may not have the opportunity--some 
would probably not call it an opportunity--to testify before 
this committee again. I want to express the collective thanks 
of all the members of the committee for your 38 years of 
service and best wishes for the future.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 41.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I join you in welcoming our witnesses and passing along my 
condolences to General Casey.
    I welcome General Chiarelli, General Amos, General 
Schwartz, Admiral Roughead. Thank you for being here, and thank 
you for your incredible service to our country.
    Don't Ask, Don't Tell was put into place almost 18 years 
ago. Since that time--I guess even at the time--it was hotly 
debated, discussed, studied, and argued about. And in the 18 
years since, that has continued. We have had countless studies 
and countless opinions expressed through those years.
    And I will disagree a little bit with the chairman. This 
committee has had many hearings on precisely this subject on 
the subcommittee level, and we have also debated it on the full 
committee level over the course of the last several years.
    I don't think it is fair to say that we haven't thought 
about this or that the military services haven't thought about 
this and of course, culminating in the very, very large study 
of service members to get their feedback and their opinions. I 
believe we have analyzed this at enormous length over an 
enormous period of time. And at some point, you have to make a 
decision about what the best way to go forward is.
    And I am pleased this Congress and the President made that 
decision last year and made what I think was the only logical 
choice and that was to allow gays and lesbians to serve openly 
in the military, because it is interesting, we all know that 
gays and lesbians have been serving in the military for quite 
some time, and I have yet to meet a service member who wasn't 
abundantly aware that somebody they were serving with was gay 
or lesbian, and yet we have the finest military in the world. 
The unit has been able to function--and function quite well--
under that circumstance.
    The only oddity that we had in the law was if the fact that 
there was a gay and lesbian serving in the military happened to 
bubble up to the command structure, the law required you at 
that point to take that person out of the military. They have 
served, served well, and served alongside other service members 
who have found a very easy way to work with them and give us 
the finest military in the world.
    When you look at these questions, it is frequently asked by 
many people about whatever policy comes up before the military, 
is a simple question: Does this policy make us safer? Does it 
strengthen our national security? In this case, the answer to 
Don't Ask, Don't Tell is clearly no. Driving able-bodied people 
out of the military who are serving and serving us well at a 
time when we are at war does not make us safer and does not 
give us a better military.
    Now I will grant you that there is going to be some 
implementation issues here. But there are many policies that 
are problematic and difficult throughout the military for the 
Service people to work with, and they find a way to work with 
them, and they find a way to move forward.
    And I applaud you gentlemen. I applaud the military for the 
way they have approached this. They are trying to do it in the 
most user-friendly way possible to make sure that it works and 
is effective. But it is long past time to study this issue. It 
is making us weaker to drive people out of the military who are 
serving us well. And I hope we will go forward with the 
implementation of the change in this policy as quickly and 
expeditiously as possible.
    I look forward to your testimony. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 42.]
    The Chairman. As bipartisan as this committee is, we can 
disagree, but we can do it in a gentlemanly-like way. And I 
thank the ranking member for his comments.
    Mr. Smith. I should have said I think the chairman is doing 
an outstanding job running this committee, and I agree with him 
most of the time, and we have worked very well together. We 
just have those moments, like everybody.
    The Chairman. Thank you. I do have a unanimous consent 
request, knowing that General Casey, Chief of the Staff of the 
Army, would not be able to testify, I asked that he provide 
answers to a series of questions I put to him in writing. We 
have his response.
    At this time, I ask unanimous consent that my letter of 
April 4, 2011, to General Casey and the General's response of 
April 6, 2011, be entered into the record. The letters are now 
or have been distributed to the members. Without objection, so 
ordered.
    [The information referred to can be found in the Appendix 
on page 57.]
    The Chairman. General Chiarelli.

STATEMENT OF GEN PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Chairman McKeon, Ranking Member Smith, 
distinguished members of the committee, I thank you for the 
opportunity to appear before you today to discuss the Army's 
implementation plans for the repeal of legislation commonly 
referred to as Don't Ask, Don't Tell.
    As you acknowledged, Mr. Chairman, General Casey is 
unavailable to participate in today's hearing due to the recent 
loss of his grandson, and he deeply appreciates everyone's 
thoughts and prayers during this very sad and difficult time.
    In December, General Casey testified before the Senate 
Armed Services Committee, stating his belief that: While the 
implementation of the repeal of Don't Ask, Don't Tell would add 
yet another level of stress to a force already stretched by 
nearly a decade of war, it would be more difficult in combat 
arms units and it would, in general, be more complicated an 
endeavor than the comprehensive review suggested. If properly 
implemented, the repeal would not preclude our force from 
accomplishing its worldwide missions, to include combat 
operations.
    General Casey assured the members of the committee that we 
have a disciplined force, led by experienced, seasoned leaders, 
who with appropriate guidance and direction, can be relied upon 
to effectively oversee the implementation of Don't Ask, Don't 
Tell repeal, with moderate risk to our military effectiveness 
in the short term and to our ability to recruit and retain 
America's All-Volunteer Force over the long haul.
    Finally, he assured the members that if directed to 
implement the repeal, the Army would work closely with the 
Department of Defense and other Services to make certain the 
implementation is conducted successfully, in a timely fashion, 
and in the same disciplined manner that has characterized our 
service to the Nation for over 235 years.
    I stand by the Chief's previous remarks. I know he does as 
well.
    Since that hearing, consistent with Congress' decision and 
the President's and Secretary of Defense's guidance, the Army 
has begun a deliberate process of training and educating our 
force on exactly what the repeal means in terms of regulation 
and policy changes.
    As in everything we do, ultimately the success of our 
implementation plan rests on the shoulders of our leaders. As 
such, our plan is based on the chain teach method of training. 
Simply put, chain teaching places direct responsibility on 
commanders to ensure all leaders, officers and noncommissioned 
officers, soldiers, army civilians, and interested family 
members are properly and sufficiently educated on this 
important policy change, its potential impact on them, and our 
expectations of them. To this end, General Casey's guidance to 
commanders is clear: Leadership matters most.
    This training is not disruptive. In February, General Casey 
personally led the first session with all four-star Generals, 
flanked by the Army subject-matter experts, the Judge Advocate 
General, Inspector General, Chief of Chaplains, and the Deputy 
Chief of Staff for Personnel. I participated in this session, 
and I can attest the process works. The chain teaching program 
facilitates thoughtful, constructive dialogue between leaders 
and subordinates. This dialogue is hugely important, especially 
at the lowest levels, where ownership and consensus are most 
critical.
    While soldiers' response to the repeal has so far been 
generally positive, we cannot assume there will be no 
opposition from within our ranks in the days ahead. In fact, we 
recognize there are some segments of the force, primarily 
within the combat arms, that have expressed concern regarding 
the repeal.
    On the whole, our force is stretched and stressed by nearly 
a decade of war, a war that is not over yet. Mindful of these 
and other considerations, we recognize if we mitigate the risks 
to readiness, recruiting, and retention, we must continue to do 
this deliberately. Training is just the start. Although I am 
confident our efforts to implement the repeal of Don't Ask, 
Don't Tell are on track, the entire process, done properly, 
will take time.
    Mr. Chairman, members of the committee, on behalf of our 
Secretary, John McHugh, and our Chief, General George Casey, I 
thank you for your patience, for your continued generous 
support and demonstrated commitment to the outstanding men and 
women of the United States Army and their families, and I look 
forward to your questions.
    The Chairman. Thank you.
    Admiral Roughead.

STATEMENT OF ADM GARY ROUGHEAD, USN, CHIEF OF NAVAL OPERATIONS, 
                           U.S. NAVY

    Admiral Roughead. Chairman McKeon, Representative Smith, 
and distinguished members of the committee, thank you for the 
opportunity to appear before you today to address how our Navy 
is preparing to implement repeal of 10 U.S. Code 654.
    I testified before the Senate Armed Services Committee in 
December that I supported the repeal of 10 U.S. Code 654. The 
United States Navy can successfully implement a repeal of the 
law. Combat effectiveness is what we provide the Nation, and 
repeal will not change who we are or what we do. Your Navy will 
continue to be the professional global effective and relevant 
force for the Nation that it has always been.
    Although a specific date for repeal has not been set, we 
have begun the process for a prompt and thoughtful transition. 
We are preparing the necessary policies and regulations to 
implement this change in law, and we are training our sailors 
and leaders at all levels. Our training emphasizes the 
principles of leadership, professionalism, discipline, and 
respect. We are not conducting sensitivity training. We are 
focusing on ensuring our sailors understand what repeal means 
to them, their families, and the Navy, and that our standards 
of conduct and behavior will not be compromised.
    We are carrying out our training using a tiered approach to 
ensure all sailors receive the appropriate level of training. 
We have 17 master mobile training teams providing training to 
command leaders in 17 geographic regions. Once certified by 
these master trainers, command leaders will then train 
personnel within their respective commands. Specialized 
training is also being provided to experts who may deal more 
frequently with repeal issues, such as chaplains, judge 
advocates, personnel support professionals, and recruiters.
    I have established 1 July as Navy's goal for completing 
training, and we are on track to achieve this goal. Feedback 
from our sailors indicates the training they are receiving is 
comprehensive, well delivered, and effective. Additionally, we 
have not observed any impacts to readiness, effectiveness, 
cohesion, recruiting, or retention during this training period.
    I continue to provide regular updates on our training 
progress to the Secretary of Defense and the chairman of the 
Joint Chiefs of Staff and remain personally engaged with them 
throughout this process.
    I am confident my assessment of Navy's readiness for repeal 
will be carefully considered during the certification process, 
and I do not believe it is necessary to provide additional or 
separate input outside of this process. I have the ultimate 
confidence that the men and women of the United States Navy, 
with their character, discipline, and decency, will 
successfully implement this change in the law.
    Navy leaders will continue to set a positive tone, create 
an inclusive and respectful work environment, and enforce our 
high standards of conduct throughout the Navy as we serve the 
Nation. Our sailors will continue to live by our core values of 
honor, courage, and commitment, which endure as the foundation 
of our Navy.
    I thank you and I look forward to your questions.
    [The prepared statement of Admiral Roughead can be found in 
the Appendix on page 43.]
    The Chairman. Thank you.
    General Amos.

STATEMENT OF GEN. JAMES F. AMOS, USMC, COMMANDANT, U.S. MARINE 
                             CORPS

    General Amos. Chairman McKeon, Ranking Member Smith members 
of the committee, thank you for the opportunity to appear here 
today and report on the Marine Corps' progress toward 
certification of Don't Ask, Don't Tell. I had the opportunity 
to specifically address Congress on Don't Ask, Don't Tell on 
December 3, where I stated to the Senate Armed Services 
Committee that should Congress change the law, our Nation's 
Marine Corps will faithfully support the law.
    The law signed by the President on December 22 established 
the conditions for the eventual repeal of Don't Ask, Don't 
Tell. The Marine Corps is working diligently to meet the 
corresponding requirements, as are all the uniformed Services. 
Once met, the required certification process may be provided by 
the Chairman of the Joint Chiefs of Staff, the Secretary of 
Defense, and the President to the congressional committees.
    Overall, I am confident that Marine leaders at all levels 
will ensure compliance with the spirit and intent of the new 
law once it goes into effect. As such, your Marine Corps has 
taken the following significant actions in line with the 
direction of our civilian leadership: After the House of 
Representative and the Senate voted to repeal Title 10 U.S. 
Code 654 in December of 2010, I published the following 
guidance to the entire Marine Corps: ``As marines, we abide by 
the laws of our Nation, and we will implement the new policy in 
accordance with specific directions and implementing guidance 
from our chain of command. Fidelity is the essence of who we 
are. Accordingly, we will faithfully execute this new law and 
will continue to treat each other with dignity and with 
respect.''
    While in Afghanistan over Christmas, Sergeant Major Kent 
and I spoke to more than 12,000 marines and sailors about the 
pending repeal and my expectations for successful 
implementation. Shortly after returning from Afghanistan, he 
and I made a video for all marines and their families to 
reinforce our message and to reach out to marines in locations 
that we could personally visit.
    Your Marine Corps has closely followed the recommendations 
of the Comprehensive Review Working Group in developing and 
executing our implementation training. Some of the very first 
marines to receive this training were my three- and four-star 
general officers in late January. On 7 February, the Marine 
Corps as a whole began Corps-wide training.
    I am pleased to report to this committee that the Marine 
Corps has completed 100 percent of all Tier 1 and Tier 2 
training. As of today, our Tier 3 training is 41 percent 
complete throughout the Marine Corps. And I anticipate full 
completion of all training by 1 June. We will complete this 
training with the aid of the Internet online when absolutely 
necessary, but the majority of our training is done face-to-
face.
    Successful implementation of this policy depends upon 
leadership, professionalism, discipline, and respect. Leaders 
at all levels of our Corps are setting the example and are 
fully committed to the sustainment of our unit effectiveness, 
readiness, and cohesion.
    In our profession of arms, adherence to standards of 
conduct is essential. Leadership is the key to creating and 
sustaining an environment where the opportunity to contribute, 
achieve, and advance to all is available.
    Before making my final recommendation to move forward with 
repeal, I intend to use both the objective and the subjective 
measures to gauge the effectiveness of training and our 
readiness to implement this new policy. Before I recommend 
certification, the Marine Corps will have completed 100 percent 
of its special staff and leader training and approximately 90 
percent of all remaining marines' training for both Active and 
Reserve Components.
    While useful, objective measures alone are not sufficient 
for me to recommend certification. I will also use subjective 
tools to include command climate surveys, enlisted retention 
surveys, and Inspector General reports to measure training 
success. Additionally, I will rely heavily on feedback from my 
commanders throughout the Marine Corps. Prior to recommending 
certification, I will confirm that all the preconditions for 
certification have indeed been met.
    I am confident that your Marines will faithfully abide by 
the laws of this Nation and will conduct themselves in 
accordance with the intent of the new policy. While leadership 
is the ultimate key to successful implementation of Don't Ask, 
Don't Tell repeal, our core values of honor, courage, and 
commitment will guide us through our training and 
implementation. I appreciate the opportunity to provide these 
details, and I stand ready to answer any additional questions 
the committee may have.
    [The prepared statement of General Amos can be found in the 
Appendix on page 47.]
    The Chairman. Thank you.
    General Schwartz.

  STATEMENT OF GEN. NORTON A. SCHWARTZ, USAF, CHIEF OF STAFF, 
                         U.S. AIR FORCE

    General Schwartz. Mr. Chairman, Congressman Smith, members 
of the committee, thanks for the opportunity to report on Air 
Force implementation of the pending repeal of the Don't Ask, 
Don't Tell policy.
    Our implementation plan comprises two key components: 
Necessary revisions to policies and regulations, and then 
training of all airmen. We will rely on steady leadership at 
all levels to implement this change in a manner that is 
consistent with standards of military readiness and 
effectiveness and with minimum adverse effect on unit cohesion, 
recruiting, and retention in our Air Force.
    Until applicable directives are updated and released, 
current policies remain in effect and will be enforced 
uniformly. Overarching policy changes involving updates to 
accession processes, recruiting guidance, standards of conduct 
and separation actions are the basis for our implementation 
training, which began on February 14 and will complete on or 
about June 30 of this year.
    The Air Force is administering the Office of the Secretary 
of Defense standardized three-tier training program, which was 
developed in conjunction with the Services and with OSD's [the 
Office of the Secretary of Defense's] Repeal Implementation 
Team to ensure consistent training themes for the entire force, 
from functional experts to commanders and senior leaders to all 
airmen across the force.
    So far, we have trained 23 percent, some 117,000 of our 
members, and are on track to train the remainder within the 
prescribed training window. We will assure implementation is 
achieved responsibly, deliberatively, and effectively. Our 
preferred method of training is in person. However, when face-
to-face Tier 3 training is not feasible, for example, during 
convalescent leave or deployment to locations where 
interrupting the mission to conduct training would have an 
adverse impact, commanders have discretion to use computer-
based training or to schedule training upon return to garrison.
    As training progresses, we will continue to report 
completion data to OSD twice a month. In the post-repeal 
environment, we will continue to monitor the effectiveness of 
our training through existing processes for follow-on 
assessment and monitoring.
    Mr. Chairman and members of the committee, we thank you 
again for your support of the Armed Forces, the standards of 
conduct that we expect, that you expect of all airmen, 
entitling every airman to dignity, respect, and equal 
opportunity, and a commitment to service above self will not 
change. Guided by our core values of integrity, service, and 
excellence, we will implement this policy change with the same 
professionalism that we demonstrate in all of our daily 
endeavors.
    Mr. Chairman, I look forward to your questions. Thank you.
    [The prepared statement of General Schwartz can be found in 
the Appendix on page 51.]
    The Chairman. Thank you.
    And thanks to each of you.
    The law was passed. You understand the relationship between 
the military and civilian law. You are doing your best to see 
that the law is implemented and followed correctly. I have 
would have expected nothing different.
    General Chiarelli, General Amos, General Schwartz, as I 
indicated in my opening statement, each of you--and in your 
case, General Chiarelli, I am referring to the comments of 
General Casey--expressed reservations during your testimony to 
the Senate about the central conclusion of the DOD [Department 
of Defense] Comprehensive Review Working Group that the risk of 
repeal to overall military effectiveness was low.
    As you proceed with the education and training phase of the 
implementation plan, has your attitude changed, and what is 
your current professional military judgment about the risk to 
military effectiveness?
    General Chiarelli. Mr. Chairman, thank you for that 
question.
    As you indicated, General Casey did indicate that he felt 
that risk was moderate. I believe he feels that it remains 
moderate today, given as far as we have gotten in our training. 
I will say that I had a session with commanders last Friday. 
They have indicated no issues so far in Tier 1 and Tier 2 
training as they get ready to kick off our Tier 3 training. But 
I think that General Casey would remain with moderate risk only 
because we are not far enough in our training to change that.
    The Chairman. Thank you.
    General Amos.
    General Amos. Chairman, you remember the results of the 
survey that came back for the Marine Corps, and it was well 
above the 50 percentile from our combat forces that had 
concerns about unit cohesion and combat effectiveness. I 
reported that in my December 3 testimony.
    I have had an opportunity to visit Afghanistan, as I said 
in my opening statement, over Christmas, travel around the 
Marine Corps. In fact, just this morning, I was on the VTC 
[video teleconference] with our commander on the ground in the 
Helmand Province. I am looking specifically for issues that 
might arise coming out of the Tier 2 and Tier 3 training. To be 
honest with you, Chairman, we have not seen it.
    I mean, there are questions. There are questions about 
billeting for marines; the kinds of questions you would be 
expect. But there hasn't been the recalcitrant pushback. There 
has not been the anxiety over it from the forces in the field. 
I will tell you that I asked specifically this morning Major 
General Toolan, I said, John, what are you seeing in the young 
marines that are out there?
    He said, Sir, quite honestly, they are focused on the 
enemy, and maybe they will have questions when they return back 
to the United States of America, but right now, they are very 
focused. And he doesn't think it is an issue.
    The Chairman. General Schwartz.
    General Schwartz. Mr. Chairman, I am not prepared to fall 
off of my assessment of moderate risk either, but we have 
trained a 100,000-plus airmen to date, and the way we have 
approached this and the reaction that we have experienced thus 
far indicates to me that we are mitigating the risk in the way 
we are approaching this. And so I am more comfortable than I 
was on the 22nd of December, but we still have a ways to go. 
And it requires the constant attention of all of us to bring 
this home.
    The Chairman. Admiral Roughead, what are your thoughts 
today?
    Admiral Roughead. I think, Mr. Chairman, my view, as the 
report was concluded, the survey was concluded, and as I 
testified in December, it was pretty consistent with what I 
sensed in the force that I had the opportunity to engage over 
time. Our training is going very well. In those areas that we 
detected that there may be some areas of moderate risk, 
particularly some of the expeditionary forces that we had 
engagements similar to my shipmates here, indicate that it is 
not at the level that we had originally forecast and it is 
going rather well.
    Similarly, as the training is conducted, the types of 
questions reflect the professionalism, the maturity, and the 
decency of our people. And so I am very comfortable. I was 
comfortable in making the recommendation last December, and it 
is consistent with what I continue to see in the Navy today.
    The Chairman. I think one of the problems I had, as I 
expressed in my openings statement and a little of the 
difference that I had with Ranking Member Smith, was kind of 
the way it was presented to us and given to us. We didn't hold 
a hearing at the full committee level. We were given a 
briefing. The study was handed out to us just as the briefing 
started. So we really didn't have adequate time to read it to 
ask I felt appropriate questions. And so my concern was more 
the procedure of how it was all laid out.
    But I--that is past, and now we are moving forward. I just 
want to make sure that we really are in tune with what is going 
on and that everybody has the opportunity to be involved in the 
process.
    I will hold my other questions for later.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I will make a quick comment. I have a question. I think you 
generally have answered all the pertinent questions in your 
opening statements and to the chairman's question, which is, do 
we have a fair process in place and are you having time to 
implement it? You seem to be working through it. It seems to be 
going better than expected. And we will see what happens as it 
proceeds. It was not a rush to judgment here. We didn't 
automatically repeal Don't Ask, Don't Tell. Part of the reason 
we put in place the way we did was to give you gentlemen the 
chance to do what you are doing right now. And ultimately, it 
has to be approved by the Secretary of Defense and the Chairman 
of the Joint Chiefs.
    I guess the comment is the question about the impact it 
will have on unit cohesion and effectiveness. I would imagine 
there are a fair number of things on a day in and day out basis 
that challenge unit cohesion, and you all have to figure out 
how to pull together and make it work. And I think when you ask 
the question in a survey, do people have concerns, they may 
well express them. But then if you follow up, as happens on 
numerous occasions within the military, I mean, part of the job 
of the people serving is you have to do a lot of very difficult 
things and to do some things they would rather not do, but they 
come together and they do it. That is why we have such an 
incredible military.
    I think your comments about the initial stages of your 
training bear that out. Yes, we have concerns, but we will make 
it work. That seems to be the direction that it is going and 
that it is not going to undermine what the military is doing. 
Because, again, as all you gentlemen I think would acknowledge, 
it is not the first time it has occurred to anyone in the 
military that they are serving with gays and lesbians. That has 
been well known for a while.
    So I appreciate your work, and I think that the training 
you are doing helps make sure that this will be a successful 
implementation. But I, too, am 100 percent confident that our 
military, that all of the Services, will keep doing the 
fantastic job they are doing, and they will be better for it 
because we won't have to drive people out of the military who 
are doing a good job just because of their sexual orientation. 
So I applaud your effort and I applaud the process you are 
going through. I guess I will just say for this committee, we 
stand ready to help in any way we can with that effort and with 
that process.
    With that, I yield back.
    The Chairman. Thank you.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    I had a couple of questions, again going back to when we 
had the hearing, although it wasn't technically a hearing, I 
guess.
    The first thing is that particularly there was a sense of 
resistance in the combat arms. Now that doesn't surprise me 
particularly. At least it seems to make sense. Because if you 
are dealing with a regular office situation, that seems to me 
to be a very different environment than if you are bivouacked 
in the field somewhere or you are under the stress of combat in 
very tight quarters and under a lot of pressure and all. So it 
doesn't surprise me.
    What were the numbers, first of all, in the Marine Corps in 
the combat arms section there? What were the numbers on that 
survey?
    General Amos. Congressman, they were in the 60s for the--
and I don't have a precise number.
    Mr. Akin. Rough number.
    General Amos. Sixty percent for combat arms.
    Mr. Akin. Was that your assessment, the same as what seems 
to me to make sense, that in a more combat-type environment, 
then tensions could be--stress is higher and also the 
conditions you are living in are more complicated; do you think 
that is what drove that number?
    General Amos. I think it could be that. I also think that 
in the units that predominantly are our principal command 
units, they are all male, typically. There are a few that have 
our females in it, but predominantly male. I think it is a 
function of they are just worried about combat. They are not 
sure what to expect. I think it was expectations and 
anticipation.
    Mr. Akin. The way the policy used to work, particularly in 
one of those combat situations or whatever--Admiral, if it is a 
submarine or wherever there is a tremendous amount of 
pressure--if someone's behavior started to become detrimental 
to the mission, the way it used to work, then they could be 
asked to leave the Service. So that tended to be a pretty 
strong--sort of kept a cap on behavior, perhaps.
    With the new policy, you have to figure out new guidelines 
as to how that is all going to work. We can say everything is 
going okay, but obviously, you have had to do a lot of 
thinking. And then if this happens, if this happens, how do you 
handle those different kind of situations? If there is somebody 
who is openly homosexual and their behavior starts to get in 
the way of the mission, what are your alternatives now, and how 
are you advising the officers to handle those kind of 
situations?
    Admiral Roughead. Thank you.
    Mr. Akin, I would say that the fact that someone is gay or 
lesbian doesn't really enter into a disruption to the mission.
    As you know, on most--almost in all of our communities, and 
very soon to be the submarine community, we are a very diverse 
force. It is not necessarily someone's sexual orientation or 
even someone's gender. If there is inappropriate behavior, if 
the conduct is unacceptable and undermines good order and 
discipline, that is the mechanism that causes a commander to 
take action and then process that individual or individuals 
through a judicial process or administrative process.
    So the same standards, the same regulations and standards 
of conduct will apply as to good order, discipline, and sexual 
harassment and sexual misconduct. So it is not as if we are 
having to create new policies. We will be enforcing these as we 
have for many years.
    Mr. Akin. So, then, in the scenario that I am talking 
about, that is handled in the same way as if somebody were 
disruptive in a heterosexual type conduct, and if someone's 
behavior is a distraction and getting in the way of mission, 
then you discipline them the same as any other situation.
    Admiral Roughead. Absolutely.
    Mr. Akin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being before us again today.
    You know, when we were going through this whole process of 
Don't Ask, Don't Tell, I did not believe that our military 
units were so fragile that finding out having somebody next to 
you that was openly gay would be so disruptive to the mission 
of our units.
    And I am very proud so far, as you have discussed today, of 
all our men and women in uniform who have--who not only go out 
and fight for us every day but who are also working through 
this new policy that you are trying to implement.
    So I always thought they were strong and a great military 
force. And I think they are proving us right.
    My question today, gentlemen, is about those gay and 
lesbian members, service members, who were discharged because 
they were gay under the--during the time of Don't Ask, Don't 
Tell. Now it is my understanding that those service members, if 
they didn't have anything else on their record, there was no 
other problem or judicial issue or anything, that they would be 
discharged with an honorable discharge. Is that correct?
    Okay.
    And in the normal--that now the policy will be that in the 
normal process, that those who were discharged under Don't Ask, 
Don't Tell can come back and ask to be put back into military 
service. Is that correct?
    General Schwartz. Ma'am, those members--those former 
members can apply to reenlist and will be considered for 
reenlistment based on the needs of the Services and our normal 
entry process.
    Ms. Sanchez. So will they have to start over, or will they 
get to reenter with given credit for the service that they have 
held if the only reason they were put out is because it was 
known that they were gay?
    General Schwartz. It is an individual case consideration. 
But there is no guarantee for returning at the same grade, 
necessarily. Again, it depends on the needs of the Service.
    Ms. Sanchez. But if that position were open, is there a 
process or are you working on the process in which a person 
says, I have been out for 2 years, but I am still fit, I want 
to go back, I had a career, I would like to go back to where I 
was, and I see that there are openings there?
    General Schwartz. Once again, if that scenario unfolded, it 
would properly be accommodated.
    Ms. Sanchez. What are the guidelines if someone feels that 
they have gone back to the recruiter or they have gone back to 
try to reenlist and they have pushback? What are the policies 
in place, or what are you working through to ensure that they 
get a fair shake to try to get back their old career, if you 
will?
    General Schwartz. There are opportunities for appeal both 
to the Inspector General of the recruiting service, in our 
case, as well as the Air Force Board of Corrections for 
Military Records. And in those two mechanisms, former members 
can appeal the designation that they have received.
    Ms. Sanchez. Lastly, what are the reporting--if you get 
harassed by someone of the same sex who happens to be gay, is 
it the same process as you would in any normal--I know I heard 
it from the other side, but I just--and what happens if the 
perpetrator is in the chain of command, is the supervisor? Is 
it the same rules as what we see, for example, under sexual 
assault or sexual harassment in the normal context that we have 
been working with?
    General Schwartz. Zero tolerance.
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman. Those were my questions.
    Thank you, gentlemen.
    The Chairman. Thank you.
    We have a series of votes. It is probably going to take 
close to an hour. Mr. Simmons has said he will make his office 
available if the chiefs would--I apologize. We are trying to go 
see that your pay continues. We will be in adjournment until 
the votes are concluded.
    [Recess.]
    The Chairman. The committee will come to order.
    Thank you for your patience.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you for so much for joining us. Thanks so 
much for your service to our Nation.
    I wanted to pick up on the issue of readiness. I know, as 
this discussion comes up about Don't Ask, Don't Tell and the 
policy and the change in that policy, as I have heard from 
folks in my district, both those that are recently retired and 
those that are in Active Duty, one of the elements that they 
bring up to me is an issue of readiness. And I know that, in 
looking at the past survey work that was done, if you look at 
the survey results that you get back from those men and women 
that serve in combat zones, you see the results are a little 
bit different than those that are serving in other capacities.
    So I think that naturally begs the question about, as we 
are going forward and looking at how this policy is put in 
place, are we going to expect from you all the proper due 
diligence to make sure that evaluations take place that are 
rigorous and that really drill down to look at our readiness 
capability, and then making sure, too, that we understand, if 
there are problems with the implementation here, what is then 
going to happen?
    So I have a couple of questions. One is, from each of you, 
the rigor under which you will pursue evaluating the 
implementation of this policy. And then if it does create 
issues on readiness, operational issues, how do you expect to 
address them? And then will that affect certification?
    And, General Schwartz, I will go ahead and begin with you.
    General Schwartz. Sir, the bottom line is, we will do this 
through the chain of command. And we will certainly monitor all 
the typical metrics that we look at, whether it be inspector 
general reports, whether it be sexual harassment indices, and, 
certainly, the commander-to-commander contact, which is 
continuous. If problems develop, we will design, you know, an 
approach to mitigate and to eliminate those challenges. I mean, 
we understand what the law of the land is, and that is the 
approach we will take.
    It is my conviction that we will probably have some 
occurrences, some deviations from our standards of conduct. And 
we will deal with them as we do others, whether it is 
heterosexual, whether it is personal conduct of other matters 
not of a sexual nature and so on.
    We are a force, as we all are, that are compliance-based, 
and we are going to continue to be that way.
    Mr. Wittman. General Amos.
    General Amos. Congressman, this may sound, I guess, trite, 
but, really, the backbone, I think, for all our Services--and I 
can speak for ours--is that it really is leadership. So we are 
not putting additional training, additional hours of training, 
once we get past or get through and complete the Tier 3 
specific kind of training, because our leadership is going on 
12 months a year every week with our young marines. So it is 
face-to-face, there is, ``How are we doing?'' That is when we 
will get a real sense that, what are the real issues that may 
come out of this?
    We can probably expect there will be some. I can't 
anticipate what they will be. I don't want to be naive about 
it, and I want to manage some expectations here. But, 
conversely, I am absolutely confident that good order and 
discipline, standards of conduct, those things are the hallmark 
of all our Services will prevail at the end of the day.
    And that is the part that will make sense to our young men 
and women. It is not, okay, we are going to go another 30 hours 
of this kind of instruction, or every year we are going to hit 
the refresh button and do this. It will be that constant, 
persistent leadership by our NCOs [Noncommissioned Officers] 
and our staff NCOs and our officers. And that will be our 
metric. We will get that feedback, and we will work our way 
through that.
    Admiral Roughead. Thank you, Congressman.
    We monitor readiness and all of the components of readiness 
continuously, and all of the factors that are involved. And we 
look at how we are constantly making those improvements. So the 
visibility that we are going to have on readiness I think will 
be very good.
    I think it is also telling that, in the survey itself, in 
those units where members served with gay and lesbian sailors, 
that they rated the unit readiness either well or very well.
    So I think that our observation of readiness, the factors, 
the elements of tone of the force that we pay attention to will 
be clear indicators of where we are.
    Mr. Wittman. My time is running out, but I did want to 
emphasize how important readiness is in our role here in 
oversight to make sure that, in no way, shape, or form, in any 
respect, is readiness to be sacrificed with the implementation 
of this policy.
    With that, I yield back, Mr. Chairman. Thank you.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for being here. I certainly apologize for 
the time. I know that you are all extremely busy, and we 
respect greatly what you do and respect your professionalism.
    I wanted to also express my condolences to General Casey 
and certainly his family. And I also wanted to acknowledge--I 
know he had been here just a little while ago, and we 
acknowledged the fact that that might be his last hearing.
    And thank you, General Chiarelli, for being here, as well.
    But I know that, as we look at the timelines that we are 
working with on Don't Ask, Don't Tell after the training and 
the opportunity to move toward implementation, I wondered if 
you could just comment, General, to General Casey's comment, I 
think, to the chairman that the force would be about half-
trained before the time to actually certify.
    And I wonder whether General Dempsey has been involved in 
this process and the current training agenda and whether you 
think that he is up to speed on the process. And do you see any 
changes in terms of trying to conclude the training of the 
Army, which we know is taking longer just by virtue of the 
numbers?
    General Chiarelli. As you mentioned, General Casey did say, 
ma'am, that he felt that he would be able to certify on or 
about--on or around the 15th of May, based on having trained 50 
percent of the force. And I think his reasoning is the fact 
that we have commanders doing it. And we really feel that 
commanders, because they are doing the training, are going to 
pick up on any issues that we might have.
    And the session that I had last Friday was the first in 
trying to get any feedback. Now we will be going heavy into the 
Tier 3 training.
    I can't tell you whether General Dempsey will, in fact, 
feel the same, but he has been involved in the training, as the 
TRADOC [United States Army Training and Doctrine Command] 
commander, prior to confirmation. And I have no reason to 
believe that--if it is adjusted, I have no reason to believe it 
would be much longer than what General Casey felt.
    Mrs. Davis. Thank you.
    I know that, initially, the directive and, certainly, the 
law was to be certain that the President, the Secretary of 
Defense, and the chairman of the Joint Chiefs would be able to 
make that certification, everything being equal, that the 
process had moved forward and there was a belief that, in fact, 
readiness and the host of other criteria were being managed 
well. And, at the same time, there was some reluctance to, I 
think, move forward on the part of the members unless you had 
an opportunity to be here.
    And I wanted to just be certain that there was no pressure, 
that there were no--you didn't feel that your voices were not 
being heard as we moved forward with this, and, in fact, when 
the actual certification was made, no matter what occurred, 
that, in fact, you would have the kind of input that would be 
required of all of you in your position. Is there any reason 
that people would have been concerned about that?
    Admiral Roughead. No, ma'am. No pressure, no question that 
our voice will be heard, as we go through the training and 
engage routinely with the Secretary of Defense and the chairman 
on this. And I have no doubt whatsoever about that.
    Mrs. Davis. Thank you.
    General Amos.
    General Amos. Ma'am, I want to be really clear that we have 
had complete open communication opportunities with the chairman 
and with the Secretary of Defense. They value our opinion. And 
we talk about this pretty close to weekly, or at least every 
other week. We sit down and talk about it, and it is a very 
frank and honest discussion. So we will have plenty of 
opportunity between now and certification.
    General Schwartz. Ma'am, we will make a written input, I 
will, to the chairman on my recommendations to him. And I am 
sure that my secretary will make a similar interaction with the 
Secretary of Defense.
    Mrs. Davis. Uh-huh.
    General Chiarelli. And I know General Casey has mentioned 
to me several times the direct input that he has had often with 
both the chairman of the Joint Chiefs of Staff and the 
Secretary of Defense over this issue as they have met.
    Mrs. Davis. Thank you.
    I know that you responded earlier to the question about the 
implementation. Can I just ask you briefly, in the letter of 
the chairman to General Casey, he mentioned that it had been 
stated that the general felt that implementation would be more 
difficult than what the Pentagon's survey would suggest.
    Is it going to be more difficult? Is it going to be as 
expected? Less difficult? How would you characterize that?
    General Chiarelli. Well, it is always difficult when you 
are working with a force of 1.1 million, with the large Reserve 
Component that we have, and the fact that they only meet 3 days 
a week, if not deployed, and with soldiers moving in and out of 
theater--that is the difficulty in working through that. And 
add that to the fact that, some concern with combat arms 
officers and soldiers in the survey indicated that they had 
more concern than others.
    But what we feel good about, at least at the beginning, is 
that the training package is a quality training package that, 
at least with early results, seems to be mitigating some of 
that concern.
    Mr. Wilson. [Presiding.] Thank you, Mrs. Davis.
    And thank you, General.
    Congressman Allen West of Florida.
    Mr. West. Thank you, Mr. Chairman, Mr. Ranking Member, and 
to all the great soldiers, sailors, airmen, marines. And I just 
want to thank you for your service and thank you for the people 
that you represent here.
    And I will be very upfront and honest. I mean, this is 
going to be implemented. I don't think that we need to sit up 
here and banter back and forth about what is going to happen, 
because, you all being great leaders, you will take the 
guidance that has been given to you and you will make sure that 
it happens, the same as I did when I was in the military.
    But, you know, once again, my concern is very simple. The 
military exists to win the Nation's wars. And I think that when 
we get to the point where we are starting to discuss about how 
the military conforms to accommodating individual behavior, 
that is what I get concerned with.
    Because, General Chiarelli, if I am not wrong, I think we 
still do have a height standard to be a member of the ``Old 
Guard,'' the Third Infantry Regiment, if I am correct?
    General Chiarelli. I didn't get--what standard, sir?
    Mr. West. A height standard.
    General Chiarelli. Height standard? Yes, we do.
    Mr. West. Absolutely. So even though I was a pretty 
strapped soldier, I am 5'9'', I was a shorty, and so I never 
could get into that unit.
    General Amos, without a doubt, I think the Marines still do 
have PFTs [physical fitness test], correct?
    General Amos. Congressman, we absolutely do.
    Mr. West. And if there was a great Marine that is serving 
well but if he cannot pass that PFT and he has a problem with 
weight, we still separate that marine, correct?
    General Amos. That is absolutely correct.
    Mr. West. And, you know, General Schwartz, I am sure that 
when we look at a commanding officer out there in your force, 
if a commanding officer has a DUI [Driving Under the 
Influence], chances are that is going to put his career at 
risk, am I correct?
    General Schwartz. In all likelihood, it would, sir.
    Mr. West. So my point is this: You know, the United States 
military is a military of standards, and it is a military of 
standards that are somewhat different from the civilian world. 
And as we go forward--this is me kind of getting on my pulpit--
I think what the people on this side and the people in the 
administration need to understand is that we are different. We 
have haircut standards. Now, I am sure a person with a ponytail 
could go out there and maybe they could serve just as well, but 
that is not part of who we are and that is not part of our 
standards.
    So I think that the most important thing is, us on this 
side must understand that we must set the military up for 
success. My worry is, when I think about the Major Nidal Hasan 
case, where we had subordinate leaders who were concerned about 
political correctness and didn't report that situation up, I 
want to make sure that our subordinate leaders understand that, 
if they see problems with the implementation of this program, 
that they are not afraid of retribution from special-interest 
civilian groups that will cause them to exacerbate what could 
be a dangerous situation.
    So, with that being said, I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Congressman West.
    At this time, Ms. Pingree of Maine.
    Ms. Pingree. Thank you very much, Mr. Chair.
    And thank you all for the service that you give to our 
country, for being here with us today, for your patience in 
waiting for us to come back. I appreciate that.
    I, personally, am a longtime supporter of the repeal of 
Don't Ask, Don't Tell, so I am very pleased to hear your 
positive comments, to hear what I think many of us believed 
would happen, was that our military would be ready to do this, 
it be would fully prepared, and that people would be handling 
it well. So I am glad to hear many of your positive remarks and 
the fact that all of you are working hard to implement this.
    Last week, in the Military Personnel Subcommittee, we were 
able to hear from Dr. Stanley, who I thought gave wonderful 
testimony about the implementation process that we are in, and 
talked a little bit about how this has, frankly, cost around 
$10,000. And that is a big contrast to what many people 
estimate, between 2004 and 2009, the cost of $193 million to 
discharge members of the military, who were highly trained, 
served their country well, and I don't believe we could afford 
to lose them.
    I have a slightly different question. And while I am very 
pleased to hear so much positive coming out of this process 
that we are going through, I have had one early, isolated 
report of a training session where the educator--the education 
and training of open service was mocked and disparaged by the 
commander. I know those are isolated reports, but I am 
interested to hear your comments on them. When we hear about 
them, should we report them back to all of you or to Dr. 
Stanley?
    And I guess I would ask you if you have any concerns about 
the idea that a commander who may mock the training or wink or 
nod or, you know, show something that is slightly disparaging 
may encounter future problems when we are in the serious 
implementation of open service.
    I do believe these are isolated, and I know you have all 
said very positive things. But when we hear those things, 
isolated as they are, I am just interested in your take on 
them, how they are being handled, and, frankly, what we should 
do and how we should convey it when we hear that.
    Any of you.
    General Chiarelli. I have had one incident that has been 
reported to me of three senior officers engaging in such 
activity. I will tell you, it was immediately reported by their 
superior, and proper action is being taken, like it would be in 
any situation where something like that happens.
    Ms. Pingree. Thank you.
    Admiral Roughead. In our case, ma'am, as we do the 
training, there are opportunities for those who participate in 
training to comment on the effectiveness of that training. And 
it also allows us to measure retention of certain elements of 
the training that we provided.
    So there is ample feedback on our Web site that deals with 
the topic. There are opportunities for individuals to post 
comments, to post questions.
    So we have good visibility that is not in a filtered 
process but one that I think is quite open and allows us to get 
a sense of the tone of the training and the receptivity of the 
training.
    Ms. Pingree. Great.
    And let me just say before the rest of you answer, thank 
you, Admiral Roughead. And I know we are looking forward to 
launching another good Navy ship from the Bath Iron Works, I 
think in May or June, and we are excited about that.
    Admiral Roughead. It is May, ma'am.
    Ms. Pingree. Thank you. We are anxious to have that happen.
    General Amos. Congresswoman, we have not had any reports 
that have come up to me. And if any Member of Congress were 
ever to get that, I would certainly want to know about it, 
because it really violates the very premise of marines will get 
in step and do it smartly and follow orders. And this is about 
obeying our Nation's laws, and so we would take that very, very 
seriously.
    We have worked pretty--in fact, have worked very hard to 
make sure everybody understands that we follow the law in the 
Marine Corps. And so, as Admiral Roughead has described, we 
have these open forums and discussion.
    Now, I will tell you, I have asked for feedback out of 
these things from the commanders. And it will be consistent 
between now and the time that I recommend that the Marine Corps 
is ready to go or not ready to go to the chairman.
    And I would say the clear majority of it is very positive, 
but there are questions about billeting, there are questions 
about policy changes, there are questions about base housing, 
there are questions about gang showers. I mean, these come up 
in the discussions, but that is healthy.
    And I have not heard of a commander--but we have 202,000 
Marines on Active Duty and 39,600 Reserve. It would be 
unrealistic to think that there is not a salty individual or 
two out there that is probably going to turn askance at this. 
And we will deal with that at the time.
    Ms. Pingree. Thank you.
    General Schwartz. And I would just amplify what General 
Amos said. This is about the Constitution and our oath to it, 
and we are loyal. And if you have information about an airman 
that is not on board, I would appreciate knowing about it, 
ma'am.
    Ms. Pingree. Right. Well, I appreciate your comments, and I 
thank you for your hard work to make this work.
    I yield back.
    Mr. Wilson. Next, we proceed to Congresswoman Vicki 
Hartzler of Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    First, I just would like to ask--I am very concerned with 
what I am hearing today, that we are going to expose our troops 
to moderate risk. And General Casey said it is another level of 
stress, it is more complicated.
    I just want to know, I guess, from each of you, when have 
you suggested a change in policy before that would put our men 
and women at moderate risk?
    Start with you.
    General Chiarelli. Well, I believe General Casey indicated 
that he felt that the report characterized it at less risk than 
he felt, given the fact we are an army that had been fighting 
for 10 years in both Iraq and Afghanistan. And he rated it as 
moderate risk.
    However, we have not completed enough of our training for 
him at this time to say it is not still moderate risk. But, at 
the same time, we have put together a very, very good, good 
training package that emphasizes our role as professional 
soldiers that we believe is going to mitigate that risk and 
drive it down.
    Mrs. Hartzler. Have you been involved in recommending a 
policy, though, where there was a moderate risk before? That 
was the question. Have you done that yet, at some other time in 
your career?
    Yes, General, go ahead.
    General Schwartz. Ma'am, I would say yes, and I would say 
it is going to war places the force at at least moderate risk.
    Mrs. Hartzler. Uh-huh.
    General Amos.
    General Amos. Yes, ma'am. When you put someone's life at 
risk in an operation, it is oftentimes heavy risk--high risk.
    Mrs. Hartzler. Sure.
    Admiral Roughead. And, ma'am, what we do is inherently 
dangerous.
    Mrs. Hartzler. Right.
    Admiral Roughead. Whether it is flying from the deck of an 
aircraft carrier, running a nuclear-powered submarine at 800 
feet under the sea, it is inherently dangerous, and we know how 
to manage the risk.
    That said, for the process we are going through, I am very 
comfortable with where we are.
    Mrs. Hartzler. Okay. Well, I think there is a difference, 
though. I mean, war is risk, I mean, obviously. But this is a 
change in policy that is going to add a moderate risk onto the 
already inherent risk of war. We are at war at two levels, and 
maybe three if you call Libya. We have men and women in harm's 
way. We are at war as a country. And yet we are talking about 
one of the most monumental changes of policy that this country 
has ever faced in its military forces.
    And I just want to speak from my heart to each one of you. 
I have the utmost respect for you. And I appreciate what you 
are doing to lead our forces and to keep our country safe. And 
there is no higher respect that I have for you.
    But I want to challenge you, that you are the last force to 
be able to stop this onerous policy. And I have to believe from 
my heart, in your gut, you know this is not the right thing. I 
appreciate that you follow command, you follow the 
Constitution, and you are fulfilling what you are charged to 
do. But there is an opportunity to not certify this. And it has 
fallen upon you, at this time in history, to be able to give 
the final say to the Secretary of Defense and to Admiral Mullen 
whether you, in your right mind, in your heart of hearts, in 
your professional career, you believe this is going to help 
improve our forces from this time on out and help us win wars.
    And I would ask you to consider this and to stand strong, 
like you stand strong against other forces, foreign and 
domestic, that have come upon our country, and that you would 
not certify this. And, with that, I am going to get into some 
specific questions, but that is an appeal I hope you will think 
about in the privacy of your own home, in your own heart, 
before you do this. Because you can stop it still, and not do 
something just for political correctness.
    But regarding chaplains, will chaplains face career 
penalties if they defer performing same-sex marriage to someone 
else?
    Any of you.
    General Schwartz. No, ma'am. We expect our chaplains to 
minister to all, but, in those activities that are specific to 
denominations, they can practice as they see fit.
    Mrs. Hartzler. Does that hold true for ministry assistants 
and having to hire them who openly engage in homosexual 
behavior, or suffer career penalties for failing to do so?
    General Schwartz. Again, we have not experienced any of the 
ecclesiastical agencies withdrawing their endorsement of their 
chaplaincies. And so, to date, that has not been an issue, 
ma'am.
    Mrs. Hartzler. Okay. Our time is up, but I appreciate your 
consideration. And, once again, I respect what you are doing, 
and we are counting on you. Thank you.
    Mr. Wilson. Thank you, Ms. Hartzler.
    We now proceed to Mr. Bill Owens of New York.
    Mr. Owens. Thank you, Mr. Chairman.
    As a former JAG [Judge Advocate General] officer, I want to 
know if you are comfortable both with the status of the UCMJ 
[Uniform Code of Military Justice] as well as your regulations 
for handling the implementation and, as I think you expressed 
before, the ability of the chain of command to process and 
handle complaints and deviations from military standards.
    I would ask that of each of you.
    Admiral Roughead. I am comfortable with that, yes, sir. I 
mean, we deal with adherence to standards every day throughout 
our military, and nothing will change in that regard.
    Mr. Owens. Thank you.
    General Chiarelli. It is our belief that commanders have 
sufficient tools to address conduct that violates good order 
and discipline. We certainly support the recommendations 
included in the CRWG [Comprehensive Review Working Group] 
report to modify the UCMJ but consider that mostly 
housecleaning, at this particular point in time, and that we 
have what we need now to move toward implementation.
    Mr. Owens. Thank you.
    General Amos. Congressman, I believe that what we have in 
place currently is more than adequate standards of conduct for 
us. In all the things that we have kind of thought through the 
implementation process, quite honestly, the UCMJ, the 
authorities, and that was something that was probably the least 
of our concerns and that we believe the current standards of 
conduct that are in place are more than adequate.
    Mr. Owens. Thank you.
    General Schwartz. There are 63 Air Force instructions that 
deal with this issue either tangentially or centrally, sir. Out 
of that, there are 27 that require some changes given the 
change in policy, 16 of which are relatively minor and will be 
done and ready to promulgate shortly. There are 11 which 
require more work, and that will take a couple more months to 
put together. But they will be ready to roll out at the time 
when, and if, the chairman, Secretary, and the President 
certify.
    Mr. Owens. Thank you.
    Are the Services, at a joint level, doing an overall or 
combined plan for implementation? Or is this being done by the 
individual Service without any type of coordination?
    Admiral Roughead. Congressman, we are responsible and 
accountable for training our own Service. The nature of the 
training, the way it has been constructed and coordinated has 
been done among the Services as we go forward together.
    But the best accountability, in my belief, is through the 
Services so that we can account for the training, that we can 
get the feedback that we need. But it has been something that 
has been well-coordinated.
    General Amos. Congressman, all through the summer, while 
the surveys were taking place last spring and summer and fall, 
part of the effort of the comprehensive working group was the 
implementation portion of this, looking at policies and 
training and everything else. They have developed, with all the 
Services--we all had representatives on that effort--a very 
comprehensive training package that addresses, really, the 99 
percentile of the issues and those significant things that we 
have to look at with regards to training and issues.
    So each Service, then, was told we will use that as the 
framework and the backbone, and then we will impart our own 
culture, our own Service culture. By that, I mean we don't 
change the nature, but for the Marines we get down and dirty, 
look them in the eye, and go, ``Okay, pay very close attention 
to me. We are going to have a discussion about this.'' I mean, 
that is the culture part, but the framework is the same among 
all the Services.
    Mr. Owens. Thank you.
    General Schwartz. Sir, I think we are executing in our 
Service lane, but you can tell there is a high degree of 
coordination at every level.
    The one exception might be joint entities, where we have a 
mix of Army, Navy, Air Force, Marines, and so on. And, in those 
cases, the individuals are getting their training from their 
senior Service leadership in the commands.
    Mr. Owens. Thank you very much.
    I have great faith that you will implement this and make a 
certification decision, or advise senior leadership of the 
certification decision that you think is in the best interest 
of accomplishing the mission.
    Thank you, and I yield back.
    Mr. Wilson. Ms. Martha Roby of Alabama.
    Mrs. Roby. Well, good afternoon. And I certainly thank you, 
Mr. Chairman.
    And I appreciate your patience with us this afternoon. So 
thank you all for being here and for what you do for our 
country.
    And I know you talked a little bit, there was a lengthy 
question about readiness and the effects of the implementation. 
But I wanted to ask you just very directly and simply how each 
of you would feel about the implementation of this repeal. How 
would it improve the standards of our military effectiveness, 
unit cohesion, recruiting and retention for our military?
    General Amos. Ma'am, I can't tell you at this point that it 
will improve it. We don't know yet. We are--the law has not 
been repealed. We are in the implementation phase right now, so 
we are in the training and education portion of this. So we 
can't say one way or the other.
    I think that is something that will happen probably a year 
or two later. In other words, you will get a sense within--in 
my community, we will get a sense within probably 6 months to 
12 months what the impact is on retention.
    We have not seen any impact on retention, we have not seen 
any impact on recruiting right now while we are in the signed 
law implementation phase. But will it improve recruiting and 
retention and combat effectiveness? I can't address that right 
now because I don't know.
    Mrs. Roby. Well, just to follow up with that, General, one 
of our members actually referenced to me a letter that was 
received from a marine, specifically discussing resignation in 
light of this repeal.
    And so I guess I could further my question and say, do you 
know specifically that there have been resignations throughout 
our military as it relates to this repeal?
    General Amos. I would suspect, out of 202,000 Marines, that 
there will be some marines that will step forward, they will 
turn letters in, they will talk to their Congressman, they will 
write articles in the press. But because they say they want to 
resign, there is--constitutionally, they stepped up and joined 
the Marine Corps. So the fact that they are uncomfortable at 
this point or the fact that they want to resign doesn't 
necessarily mean they are going to be allowed to resign. They 
have a commitment to our Nation, the same as any other service 
man or women has.
    So I don't know of a specific one, but I would be the most 
surprised person if there weren't a couple out there that said, 
``I am going to resign.'' Doing that and actually following 
through are two different things.
    Mrs. Roby. Yes, sir.
    General Schwartz. Ma'am, I would just say that, you know, 
our experience so far hasn't--we haven't accumulated enough 
data points to sort of make a judgment.
    But I would say that, conceptually, you can argue that 
there might well be improvements at some point because fewer 
people leave the Service and so on. And, ideally, that is the 
right people who stay.
    But I think, at this point in time, it is premature to make 
a judgment.
    Admiral Roughead. Ma'am, I would say one of the biggest 
challenges that we face today is too many people want to stay 
in the Navy, and that that has not changed as a result of the 
process that we are going through. In fact, it is just becoming 
more pressurized for people who want to stay or who even want 
to come in. And you can debate the reasons as to why. But this 
has not, in any way, shape, or form, changed that dynamic that 
we are dealing with.
    I do think that one of the things that will be true once 
this is implemented is that we won't have sailors who, because 
of orientation, are always looking over their shoulder.
    General Chiarelli. I would only echo what the other chiefs 
have all said. It is too early to tell, but we have seen 
nothing that would indicate, so far, that there will be any 
more individuals who indicate a desire to leave than there 
would be with any other policy that possibly could be changed.
    Again, we feel very, very good, so far, at really not 
hearing a lot of that. We have not heard those reports except--
I mean, in an organization of 1.1 million, again, there are, no 
doubt, going to be a few.
    Mrs. Roby. Yes, sir. Thank you so much.
    Mr. Chairman, my time is almost up. I yield back.
    The Chairman. Thank you.
    Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    And, again, thank you for accommodating our schedule today. 
And I think this is obviously an important issue, and I want to 
thank all of you for your thoughtfulness in not only your 
remarks today but throughout this entire process. I want to say 
thank you.
    This is something that I think has been a long time coming 
for our country. A lot of the issues that we talk about as a 
country, that we fight about as a country are the issues of 
freedom and liberty. And we hear the words thrown around a lot. 
And I think the implementation of this policy is an opportunity 
for us to create that more perfect union here in the United 
States and allowing free American citizens to serve their 
country in whatever way they see fit. So I want to thank you 
for that.
    And, really, just mention a couple stories here, Mr. 
Chairman, from back in Ohio, because we have gotten a lot into 
the logistics here today, and I think it is important that we 
recognize that these are real folks that want to serve our 
country.
    We have someone back in Ohio, former Air Force Major 
General Mike Almy, native of Dayton, Ohio, who was a gay 
soldier who was discharged under Don't Ask, Don't Tell. A 13-
year veteran of the Air Force kicked out of the armed services 
after his superiors investigated his personal e-mails and found 
the correspondence between he and his partner.
    Patrick Moloughney, Cincinnati, Ohio, a ROTC [Reserve 
Officer Training Corps] student outed shortly before graduation 
and discharged, still wants to serve, still wants to come back 
and serve his country.
    Brian Endicott from Columbus, Ohio, joined the Army in 1992 
when then-candidate Clinton talked about the promise then to 
ban from the Service. When Don't Ask, Don't Tell was 
implemented, he opted not to re-enlist.
    And then, lastly, Josh Kreais served a full term as a 
combat medic in Iraq. After returning, he was discovered by 
someone who had unauthorized access to his e-mail; another 
soldier got his password somehow. He was brought up on 
discharge proceedings, but those proceedings were put on hold 
until he served a second full term in Iraq, and he was 
discharged shortly after he returned. And he is from Upper 
Sandusky in Ohio.
    So these are real people who want to serve our country that 
are talented.
    So, again, I want to just say thank you, and ask one quick 
question. And I apologize if I missed in the transition if this 
question has already been asked. But how soon after 
certification will former service members who wish to return to 
service be allowed to begin the process? Some former service 
members approaching 40 are worried that they will age out 
before the process begins.
    General Amos. Congressman, in the case of the Marine Corps, 
once certification is done and the law--it is 60 days later the 
law becomes effective. Then, in the case of the Marine Corps, 
those that have been discharged in the past--and we have had 
about 1,400 Marines since 1993 that have been discharged for 
homosexuality--can apply.
    And what they will do, they will go to a prior-service 
recruiter, and they will apply just like anybody else that has 
left the Marine Corps with an honorable discharge, come back 
in, and if their skill sets and their age and they meet all the 
requirements and there is a need, then they will be allowed to 
come back on Active Duty. But they will fall in the competition 
with everybody else that has gotten out and have come back as a 
prior-service marine.
    Mr. Ryan. The same.
    General Chiarelli. Same for the Army. Exactly as General 
Amos laid it out. And, quite frankly, this is something going 
on all the time in the Army with soldiers who have left, for 
whatever the reason might be, many of them petition to come 
back in.
    Mr. Ryan. Great. My time is winding down here. Thank you so 
much. Again, this is a long time coming. And we appreciate your 
help in the training and implementation of this. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you for being here today.
    General Chiarelli, my sympathy to the Casey family. We 
certainly have just the highest regard for General George Casey 
and his service.
    As we are proceeding, I share the concerns of Chairman Buck 
McKeon that there were hasty decisions made in December in 
regard to passage of this law. In fact, it really is bizarre. 
It was a lame-duck session of defeated Members of Congress who 
have made this change in the law.
    Normally, you would think of a representative democracy 
that people would be representing their people. But these were 
people who had actually been rejected by the voters of the 
United States, and then they changed this law. I find that just 
really undemocratic. It is also shocking to me that these are 
the same people who did not pass a budget. And that is what we 
are facing today.
    But it is amazing that they could have made such a 
decision. And that makes it even more important as to the 
certification effort that every effort is made to look into 
morale, unit cohesion, good order, discipline, recruiting and 
retention, and combat readiness. Because Members of Congress, 
defeated ones, did not look at that. And didn't care.
    It is my view in my 31 years of service that extraordinary 
surveys--anonymous surveys so that people could speak freely--
are really very helpful. Will there be any surveys as you are 
considering the certification process of members of the 
military?
    General Schwartz. Sir, not surveys in the context of what 
was performed last fall, but certainly there will be an 
aggregation of information through the command chains and other 
normal reporting mechanisms to give us the information, the 
situational awareness we need to make the recommendation, in 
our case, to the chairman. And just to address what 
Congresswoman Hartzler indicated earlier, you can rest assured 
that each one of us will give our best military advice to the 
Chairman of the Joint Chiefs.
    General Amos. Congressman, in our case, I have the 
objective criteria which we talked about earlier on, Tier 1, 
Tier 2, and Tier 3 training. That will be complete.
    The subjective part for us will be command climate surveys, 
which is a formal survey. It is not a jump on a blog site kind 
of survey, but it is a real--we bring trained people in; we do 
a command climate survey. And then we have our retention 
surveys, our early retention surveys that we do. Those are all 
fixed things that we do. We will also have the input from the 
commanders.
    So there are surveys. It is not a specific one to deal with 
this. But it will talk about marines, how they are feeling 
about staying on Active Duty in the Marine Corps, how is the 
climate in their command, which are things I am very concerned 
about and that to your point about retention and combat 
effectiveness and unit cohesion.
    Admiral Roughead. Congressman, I would say that we make 
several changes in the Navy from time to time on policies and 
other issues. I will tell you that at no time have I seen the 
continuous feedback, the continuous assessment on the part of 
the training that is going on to the degree that we are doing 
here. So I do believe that the pulse of the force is going to 
be monitored throughout this in ways that we have never done 
before.
    General Chiarelli. I can only echo that.
    And with your experience in the United States Army, 
Congressman, you know that commanders are best suited to be 
able to tell whether a change in policy is going to have an 
effect on any of the things that you mentioned. And that is why 
we have put it foursquare on their shoulders to be the one that 
conducts the training and get the feedback from their units and 
soldiers.
    Mr. Wilson. I appreciate your statements. I am also 
concerned about First Amendment rights of chaplains. Will there 
be guidelines for chaplains as to how they conduct themselves 
and their ability to comment on this policy?
    Admiral Roughead. Yes, sir.
    In fact, chaplains are part of the Tier 1 training, very 
focused on that. The Chief of Chaplains was involved in the 
development of that training. The rights of not just chaplains 
but all of our sailors to practice the tenets of their belief 
is unaffected.
    Mr. Wilson. There will be not be retaliation against those 
who may disagree with the policy in expressing their point of 
view?
    Admiral Roughead. I believe that those who have moral 
objections and find that it is a challenge for them because of 
their beliefs, those beliefs can be expressed.
    That said, any expression of that that goes beyond the 
norms of the normal decency and respect that we have for one 
another, that is a line that I think could be crossed. But 
their ability to deal with their religious beliefs, to discuss 
those beliefs, to seek guidance from our chaplain corps will be 
unaffected.
    Mr. Wilson. Thank you.
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, thank you, both for being here and your patience 
and also for your service. I don't have any doubts that the 
results that you see, you will report accordingly. So I really 
don't have any questions, except to tell you how much we 
appreciate the work that you have done and the work that you 
are doing. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And to all of you, thank you so much for basically being 
the custodians and guardians of our young men and women who 
volunteer to serve and whose parents trust you with their lives 
and livelihoods.
    The first question for everybody is, basically, I would 
like to know how the repeal increases combat effectiveness.
    General Chiarelli. As I mentioned earlier, we don't know 
exactly yet how it is going to. But I would argue that if we 
are able to--if the decision is made to repeal and 
certification does take place, as we work this over time, 
inclusive organizations are usually the best kinds of 
organizations. And we will look at that and the ability to 
ensure that soldiers are able to stay in critical MOS's 
[military occupational specialties] longer as possible areas 
where it could improve readiness.
    Admiral Roughead. I think that one of the things that is 
important, as you so well know because of your service, 
Congressman, is the integrity and the belief that people can 
have in being frank and honest and open. I believe that that 
now becomes part of our force in a way that it has not been. I 
also would echo what General Chiarelli said, in that there are 
some talented people who have left the Navy because of this.
    Mr. Hunter. Specifically, combat arms. Do you think the 
Navy SEALs' [Sea, Air, and Land Teams'] combat effectiveness 
will increase after the repeal and different Special Forces 
Task Forces that fall under the Navy?
    Admiral Roughead. I think that across the Navy when--
oftentimes, people talk about the combat arms, and that really 
conjures up the ground force. But I would submit that those who 
serve in our submarines, who serve in our airplanes, are as 
much of a combat arm as anything that we have.
    Mr. Hunter. Do you think it will increase the 
effectiveness?
    Admiral Roughead. I believe that we will see great young 
sailors, who perhaps otherwise would not serve, will be able to 
serve. And to quote an anecdote from some of the surveys that 
was done with regard to one of our Navy SEALs, a comment was 
made: He's big, he's bad, he kills a lot of bad guys. And, oh, 
by the way, he's gay. So I think that we will see good people 
serving, yes, sir.
    General Amos. Congressman, too soon for me to tell.
    I think the one thing that will happen, some of this will 
be a little bit evolutionary. It will become revealing over 
time. But I am not in a position right now where I can comment 
on, will it increase combat effectiveness?
    I think it will increase peace of mind for a portion of our 
Marine Corps that is gay and lesbian. They have been there 
since 1993 when the law was in there. I don't know how many of 
them are. My suspicions are the numbers are probably pretty 
small. But we know that they are there. I don't know who they 
are. And I don't care at this point. But my sense for them, 
there will be a peace of mind that they have been unable to 
have prior to this.
    Have we lost high-quality folks with unique talents that 
were ``onesie-twosie''? I can't tell that. So, for me as a 
marine--as a commandant, it will be a while yet before I will 
be able to look back and say, our combat effectiveness has 
increased.
    Mr. Hunter. Thanks for your honesty and your blunt answer. 
General.
    General Schwartz. I agree with that.
    Three things: Clearly, peace of mind. There is the 
potential for keeping people who otherwise might have to depart 
our Air Force. And it increases--potentially increases the 
recruiting pool. We shall see.
    Mr. Hunter. I think I heard that we don't know whether it 
will increase combat effectiveness or not yet. I think that was 
what everybody has agreed on.
    The last question. I have only got a minute left. Say that 
you and your commanders on the ground for your combat units 
specifically, do not think that--let's be hypothetical, even I 
know we all hate that. In 6 months, the repeal happens but your 
commanders tell you that your combat units are not ready yet 
and you either don't make a recommendation at that point yet 
because you are not ready for the repeal, or you do and it is 
that we don't do it yet, that we need more training, we need 
more whatever. What would you do then if the implementation of 
the repeal is forced upon you? Do you have any recourse?
    Admiral Roughead. Congressman, I would say that I am 
comfortable and confident in the voice that we have with regard 
to the assessment of where we are objectively and subjectively 
that when we make our recommendation with regard to where we 
are in training, how we believe this went, how we believe it 
has gone, do we have to circle back perhaps to emphasize some 
other points that need to be made that we may have identified 
as part of this feedback mechanism, I am confident that our 
recommendation will be heard.
    Mr. Hunter. And your recourse if it isn't? If you are not 
ready and the implementation is forced upon you.
    Admiral Roughead. I am confident that the recommendation I 
make with regard to the readiness of the Navy will be a factor 
in whether or not we go forward as a force or not.
    Mr. Hunter. Is everybody comfortable with that?
    General Schwartz. I would only add: A very significant 
factor.
    Mr. Hunter. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I had asked for the Office of the Secretary of Defense for 
some additional questions on how this impacted--from the 
survey, as to drill down further as to how the survey impacted 
our ground combat arms elements of the United States Army and 
the United States Marine Corps, having served in both as a 
soldier in the U.S. Army infantry and as an infantry officer in 
the Marine Corps. I did get the raw data for the survey results 
of the specific questions I had. And it is amazing, when the 
Office of the Secretary of Defense has something that they want 
to get to me that they agree with me on, how quick they are.
    But I believe that they intentionally delayed this. And it 
took them 2 months to give me the information that they had 
right on the top of their desk. And it is contained in this 
binder here.
    In going through the raw data, what it showed to me is how 
flawed this survey was; that it was no more than a conclusion 
looking for a survey. And it is simply not legitimate. It is 
flawed. And I think this speaks to the lack of honesty in this 
process. But I just want to--and I am not going to put you in 
the middle of this because you are already in the middle of it, 
whether you want to be or not, but I just want to thank you not 
just for your service but for making this work in terms of 
trying to mitigate whatever stresses this has on our forces. 
Because it really doesn't matter at the end of the day what you 
tell the Secretary of Defense or the Chairman of the Joint 
Chiefs of Staffs, they are political appointees. And we have a 
commander in chief who made this as a campaign promise, and 
they will follow through with that promise with him, there is 
no question in my mind.
    I think I would only ask of you one thing, and that is my 
heart is with the infantry, both the Army and the Marine Corps. 
And I am very concerned. I think that there is a reason today 
why we don't have women serving in ground combat units where 
their primary mission is combat. And that is because we have 
chosen not to interject sexuality in those units to maintain 
unit cohesion. We are going to be interjecting sexuality in 
those units. And having served in combat with a ground combat 
team in conventional operations in the first Gulf War--I served 
in Iraq, but not in the infantry--but in the first Gulf War, 
where you went out and you stayed out--that young people, for 
young people, sexuality is an emotion that is very prominent in 
their lives.
    So I just want you to I take extra caution in recognizing 
the differences in these ground combat units. Because as you 
look at the survey, the questions--because, obviously, it is a 
conclusion looking for a survey--are not geared to those units.
    And so, again, I just want to thank you for your service 
and what you do. I know you are in a tough position, but I know 
you are going to do the best you can in what is not a military 
decision, at the end of the day. It is a political decision.
    I yield back.
    The Chairman. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Gentlemen, thank you all for being here today. Thank you 
for your service.
    In a large sense, I guess I kind of feel like Sam Houston 
when he arrived on to the site of the Alamo and saw the 
destruction and the death, and he couldn't help his fellow 
Americans, Texans, Tennesseeans, and so forth.
    So I do have a few questions. I do think I share most of 
the views with the Republican members that this is a hasty 
policy. It was a policy that shouldn't have been passed in a 
lame duck session.
    I kind of disagree with some comments that if soldiers who 
have enlisted or become commissioned officers under a certain 
thought that their military was a good military, a correct 
military, or just whatever they thought the military was when 
they joined, and this Congress comes and tinkers with it and 
they no longer see it being what they envisioned or what their 
grandfathers in the Pacific War envisioned it being, then I 
think we may need to provide them some relief to exit the 
military, because we don't want to hurt them on their way out. 
They have served honorably. So let's just please keep those 
considerations.
    Because I have heard comments from high-ranking officials 
that, well, you know, they are just going to either accept it 
or they know what they can do. And I think that on its face is 
a disservice to the people who have sacrificed so much for so 
many people.
    I would like to just address the survey real quick. How 
many people responded to the survey? If anybody has all the 
technical information, just feel free to input.
    General Schwartz. We can take that for the record. But for 
the Air Force, it was 117,000, or thereabouts.
    Mr. Palazzo. If you could say about how many responded and 
how much your total force, including Reserves.
    General Schwartz. It was a response rate slightly over 30 
percent.
    General Amos. Congressman, I will also take that for the 
record to get you the precise numbers, but it was well over 
40,000. And then there was spouses. Families members were also 
allowed. Three parts to the survey. Actually, four. One was the 
actual survey to the service members. The second one was the 
spousal survey. There was a blog site, kind of a free-for-all 
king of thing. And there was another one. We will get you that 
information.
    Admiral Roughead. Congressman, for the Navy, it was 28 
percent of the Active Force, 33 percent of the Reserve 
Component, which is very consistent with the normal response 
rates on all the instruments that we use to make significant 
decisions in the Navy.
    General Chiarelli. For the Army, I will take that for the 
record, but I know it was under 30 percent of those who were 
surveyed, and it was higher in the Reserve Components than it 
was in the Active Component force. I will get you the exact 
numbers, Congressman.
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Palazzo. I appreciate that.
    Of course, that brought so many other questions in my mind 
right now. Why do you think the number was so low? And before--
I would like to inject some comments with that. From what I 
have seen in my service is that two things were taking place. 
One, they didn't believe it was an anonymous survey. They 
thought their IP [Internet Provider], their computer, their CAC 
card [Common Access Card], however, their AKO [Army Knowledge 
Online] account, somebody out there was going to watch them, 
and they thought there was going to be--if they didn't agree 
with it, not that they are going to be on some list, but 
something out there.
    Now that is just a perception. Typically, perception is 
reality in some things. And the second, they were scared. Well, 
that was--I already covered that.
    They resigned. They were resigned because they saw the 
writing on the wall. And they saw the Democrats pushing this 
through in a lame-duck session. They saw the commitment from 
the President. And I think they also may have thought that the 
Joint Chiefs and others up top weren't going to have an honest 
discussion about this.
    And I am just--these are feedbacks that I have gotten, 
because I have yet to find a soldier in the National Guard, 
Reserves, or when we took a tour on the Western bases with 
Chairman McKeon, anybody that is in support of repealing Don't 
Ask, Don't Tell. I just find it--it just makes me believe--A, 
the survey, I took it. I think it was very limited in its 
response. It was bogus. I hope, going forward, after you do 
your technical criteria--and I hope it is better than some of 
the criteria we choose the recipients of military contracts--
but it is a fair, honest discussion. And maybe we should have 
another survey, one that maybe this Congress, the 112th 
Congress can help draft, with your help, to ask some more 
direct questions to our men and women in uniform.
    My time is coming close. If you want to comment for the 
record, please do so. And please don't--this isn't directed 
personally at you. I know you all--I have seen your bios. You 
are true, true American heroes. I don't envy you. Where Admiral 
Halsey and Chesty Puller and Patton and MacArthur are going to 
go down under different pretenses, I just hope your names 
aren't going to be going down related to the certification of 
this policy.
    Please think long and hard. Please make sure that it is not 
going to affect our recruitment, our retention, our readiness. 
And please, and I am saying this--I just apologize to our 
veterans who have served before us, those who currently serving 
on Active Duty and the Reserves and those who have yet had the 
opportunity to serve because I don't think this is a good 
policy. Please take that into consideration. Thank you.
    The Chairman. Mr. Rigell.
    Mr. Rigell. Thank you, Mr. Chairman.
    I thank each of you have gentlemen for your patience with 
the testimony today. I had the privilege of being with our 
troops in Afghanistan just a couple of weeks ago.
    They are first a reflection of their parents. And they are 
a great reflection of their American parents. But they are also 
a reflection of your leadership. They are well equipped, well 
led, and they are motivated. And they are doing everything that 
we are asking of them. I commend you for that.
    I am here as a first-time elected official. I still own a 
business that I started, I had the privilege to start 20 years 
ago this month. I know over the course of that time and 
probably today, there are those serving with us in my company 
who are gay and lesbian. And I have never made any distinction. 
It just was completely irrelevant to me what their sexual 
orientation is.
    Now I think the difference is and why I think that Don't 
Ask, Don't Tell was a reasonable, though imperfect, policy, was 
at the end of the day, you don't go home with your coworkers. 
There is a profound difference.
    My military career is very limited; I am the first to say 
that. But I tell you, you go through Parris Island in 1978, and 
it is still this way today, I know, because my son went through 
and I went back in the barracks and you know, the showers are 
just about the size of an American garage. No stalls. It is 
done by design and I think with good purpose and good intent. 
It is just you literally lose your right to privacy. And you 
know that going in.
    So given we are headed down this path, and if my time 
permits, I would like to talk about if this certification is 
truly a foregone conclusion. It sure seems like it. But if it 
is not, we can talk about that as well.
    Commandant Amos, if you would, sir, I would appreciate, 
what guidance is given to like a platoon commander or platoon 
sergeant for those who have a genuine, genuine moral concern 
about very close--I am not talking about a widespread ``I just 
can't work with a person who is homosexual.'' I, frankly, don't 
have any tolerance for that. But when you get down to close 
berthing accommodations and those kind of things, where I think 
a reasonable person would say, you know, I can understand that 
is a genuinely held view, we are going to work with you on 
that.
    Now it is my understanding, and I would like to be 
corrected today, but it is my understanding we are not going to 
make accommodations for those views. Could you clarify that for 
me?
    General Amos. Congressman, I would be happy to. The Marine 
Corps billets two by two, which means that we put two Marines 
in a room, shared head facility in between, and two marines on 
the other side. We are the only Service that has a waiver to do 
that. We do that for a specific reason--for unit cohesion, for 
we are a young force, as you know. We are the youngest of all 
the Services. So we have 18-, 19-year-olds in there, and we 
want--we breed the buddy system, and we breed that cohesive 
bonding. That is how we do business in the Marine Corps. So we 
are two by two.
    Again, as I said earlier, without knowing the exact 
numbers, my suspicions are our numbers of gays and lesbians 
that are currently on Active Duty in the Marines, the numbers 
are reasonably small. There is no provision to build a separate 
barracks or have separate rooms for marines that are gay or 
lesbian. There is no intention to do that. I certainly have no 
intention to do that, nor can I afford it.
    But I have confidence--and here is the guidance I have 
given my generals and my commanders, is that I expect the 
privacy and the rights of each marine to be honored with 
respect and dignity. I suspect that there are going to be 
issues when marines are allowed to come out in the open and 
declare themselves as openly gay. I don't know how that is 
going to happen, but I suspect that when that happens, there 
will be some marines that will say, I don't want to room with 
that marine. And that is why we have staff sergeants, platoon 
sergeants, and first lieutenants and company commanders. And 
they are going to look them in the eye, and they are going to 
resolve it at the lowest level. And it is the standard Marine 
Corps leadership. I am confident of that.
    Mr. Rigell. And the rights of the person asking for the 
accommodation to be moved, those rights will be respected as 
well, is that correct?
    General Amos. They will. Each case will be unique. Each 
case will be handled uniquely by that leader, and each case 
will, no doubt, be different. There may be a common thread, but 
the respect and rights of both marines will be honored.
    Mr. Rigell. Thank you.
    General Schwartz. The backdrop of this, at least for us, 
and I think for all of us, is that we are not trying to change 
anybody's beliefs or their belief system. But we do and we will 
mandate a standard of conduct. And that is inviolate.
    Mr. Rigell. Thank you all for your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Gentlemen, I am coming in here pretty late and I know you 
probably covered a lot of areas that I may be having some 
redundancy here. But first let me thank you for your service. I 
try to say every time when people, general officers and others 
of leadership in our Armed Forces come forward, we know that 
you have given profound sacrifice and time in your life for the 
cause of freedom. Those of us that talk about freedom are 
certainly very grateful for those of you that carry this 
burden. And I appreciate you very much.
    When the debate was occurring on this issue, some of us 
tried to focus mostly on what was the impact on military 
readiness and the effect of our capability to fight and win 
wars. And some of the leadership of the Armed Services had 
asked us for a time to be able to study this issue and to able 
to come back before the vote occurred to give us some at least 
insight as to whether or not this was a good policy or not.
    Let me start by asking General Schwartz, if it is all 
right, I will aim at you first, sir. Did any efforts continue 
to go forward to ascertain the impact on military readiness of 
this policy? If so, are there any ongoing efforts like that, or 
any data collection, any things that you are studying now as 
leadership of the military to ascertain what is the actual 
impact of this on our readiness?
    General Schwartz. Congressman, we have routine measures and 
efforts underway to ascertain our unit readiness and so on for 
employment, for whatever the case may be. And that is 
continuing. And we monitor that routinely. I would simply say 
that we, all of us, are fundamentally concerned with our 
ability to execute and that none of us are inclined to endorse 
any approach that would somehow diminish that capability.
    Mr. Franks. General Amos, do you have any thoughts there, 
sir?
    General Amos. Congressman, our training is intimate. It is 
personal both at the platoon level, the company level, and the 
battalion squadron level. We watch it very carefully. It is 
very structured. We know what our readiness is at any given 
time in preparation for deploying to combat. Most of our units 
are either in combat, have just come home and are resetting to 
go. So it is a personal matter; readiness and combat 
effectiveness is personal to our Marine leadership. And in that 
regard, we have not seen any drop in it. But, again, we are in 
the implementation stage right now. But my expectations are the 
truth of the matter is I don't think we are going to see a drop 
in it.
    Mr. Franks. At this time, if you had to point to any one 
area--and I will throw it out to the panel--the most 
challenging area that you may have as a result of this policy, 
is there anything that just stands out in your mind?
    Admiral Roughead. Congressman, I would say that we are 
training a very large force, and quite frankly, the responses 
that we are getting, the tone of the questions, the nature of 
the questions, are consistent with what we believed as we went 
forward. I think in the case of the Navy, there are questions 
such as issues of accommodation. But they are being answered by 
the training teams, and we are just going to work our way 
through those types of questions. And the tone--I place a great 
deal of emphasis on the tone of the force--remains very good as 
we go through this.
    Mr. Franks. One last question. I know that the issue of the 
chaplaincies has already been broached at least once. Let me 
ask anyone here that would suggest or would be able to say, has 
there been any impact on the chaplaincies? Has there been any 
requirement as a result of this policy placed on chaplains that 
would be considered a change of policy, or have chaplains 
exhibited any sort of challenge with this policy in general?
    I will start again, General Schwartz.
    General Schwartz. Not in the Air Force.
    Mr. Franks. There is no indication chaplains have been 
required to adapt to this policy in any way, is that your 
testimony?
    General Schwartz. The chaplains--we haven't implemented--we 
haven't certified and we have not implemented the policy yet. 
But the fundamental part of this is twofold. One is that they 
minister to all airmen. And in those cases where they are 
performing the context of their faith and their denomination, 
that they do that consistent with their faith, however that may 
unfold. But in a broader sense, they minister to all airmen.
    Mr. Franks. Thank you gentlemen very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    And again, thank you for your patience. I apologize for the 
interruption. That is one of the things that we have to do 
here, is vote. I encourage you to take into account all of the 
things that you have heard here today on all the various sides 
of the issue as you go forward in preparing yourself to train 
the forces to see that they are trained and to certify their 
readiness and the time that we will be ready to implement this.
    Again, thank you very much for your service.
    This committee stands adjourned.
    [Whereupon, at 4:22 p.m., the committee was adjourned.]
=======================================================================

                            A P P E N D I X

                             April 7, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 7, 2011

=======================================================================
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 7, 2011

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 7, 2011

=======================================================================
      
             RESPONSE TO QUESTION SUBMITTED BY MR. PALAZZO

    General Chiarelli. For the Service Member Survey the Army received:

    Total Army response = 30,433. Respondents Response Rate:

        <bullet>  AC = 11,488 = 19%

        <bullet>  ARNG = 10,311 = 22%

        <bullet>  USAR = 8,634 = 25%

    Response rates consistent with Army's recent norms.

    For the Spouse Survey:

    Total (All Service) = 44,266 returns = 31.0% return rate:

        <bullet>  Active Army = 5,480 returns = 26.4% return rate.

        <bullet>  Army Guard = 5,432 returns = 30.3% return rate.

        <bullet>  Army Reserve = 4,004 returns = 30.4% return rate. 
        [See page 31.]

    General Schwartz. 39,065 people responded to the survey:

        <bullet>  Active Duty: 18,644 or 47.7% of respondents; 5.6% of 
        total active duty force of 332,200.

        <bullet>  National Guard: 11,024 or 28.2% of respondents; 10% 
        of total Guard force of 106,700.

        <bullet>  Reserve: 9,397 or 24.1% of respondents; 13% of total 
        Reserve force of 71,200. [See page 31.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 7, 2011

=======================================================================

      
            QUESTIONS SUBMITTED BY MR. MCKEON AND MR. WILSON

    Mr. McKeon and Mr. Wilson. 1) Secretary Stanley has concluded that 
all the findings in the original law relative to military life and 
readiness remain valid except (13) concerning the longstanding law in 
the unique military culture prohibiting homosexuality and (15) 
concerning the conclusion that homosexuals in the military would create 
an unacceptable risk to morale, good order, discipline, and unit 
cohesion that are the essence of military capability.

    <bullet>  Do you agree with that assessment?

    <bullet>  If findings 13 and 15 are no longer valid, why must we 
develop and implement a training program to prepare the force for the 
repeal of the law? It would seem that if we've ``moved on'' from those 
points that we'd just recognize that fact rather than educate the 
force.
    General Chiarelli. Yes. Any major changes to laws, regulations, or 
policies should be clearly explained to all personnel to ensure 
universal understanding and compliance. For instance, although sexual 
harassment/assault was clearly unacceptable and not in accordance with 
Army Standards of Conduct, major education initiatives were needed to 
bring about a full understanding of the issue and consequences, and 
this education is still necessary and required.
    Mr. McKeon and Mr. Wilson. 2) Secretary Stanley has indicated that 
he agreed with the interpretation that the response on the survey 
``equally as positively as negatively'' was an appropriate indicator 
that the respondent believed that repeal could be implemented without 
adverse impact on readiness. That conclusion is the basis for the 
statistical justification that the force agreed with repeal.

    <bullet>  Do you believe that was an accurate interpretation of the 
response, ``equally as positively as negatively''?

    <bullet>  Do you think the survey would have been better to draw 
more clearly defined negative and positive responses?

    <bullet>  Do you believe the surveys should have simply asked, ``Do 
you believe repeal of Don't Ask, Don't Tell should occur?'' How do you 
think the force would have responded to that question?
    General Chiarelli. The survey conducted by Westat was not designed 
to be a referendum on the issue of DADT repeal, nor were any decisions 
based solely on this survey. The survey was conducted to measure what 
Service members and their spouses were thinking about a potential 
repeal and was used as one of many contributors to the decision making 
process. As to how I believe Soldiers would have responded to a 
specified question asking if the ban on homosexuals in the military 
should be repealed, it is difficult to say and I have no basis on which 
to provide an informed opinion.
    Mr. McKeon and Mr. Wilson. 3) On the issue of collecting data on 
gays and lesbians and behavior that results from open service of gays 
and lesbians, DOD has been adamant that privacy is more important than 
information.

    <bullet>  As a commander charged with the responsibility to 
assessing the success of repeal, how would you evaluate the 
consequences of repeal and protect the rights of gays and lesbians 
without data?
    General Chiarelli. The Army will protect the rights of all Soldiers 
irrespective of sexual orientation. However, where sexual orientation 
may be a factor in clear violations of Standards of Conduct or with 
criminal behavior, investigators are allowed to record the information 
as necessary.
    Mr. McKeon and Mr. Wilson. 4) Secretary Stanley has indicated after 
a commander takes action to relocate the billeting of personnel because 
of privacy concerns there was no concern that gays and lesbians will 
have then been stigmatized and unit cohesion disrupted.

    <bullet>  Do you agree with that assessment?
    General Chiarelli. Yes. Commanders move Soldiers all the time for 
various reasons, and I do not expect this issue to cause any 
extraordinary concern.
    Mr. McKeon and Mr. Wilson. 5) Secretary Stanley has indicated that 
there will be no need to change any regulation or cultural behavior to 
restrict heterosexual behavior because of gays and lesbians being 
present in the force.

    <bullet>  Do you agree?

    <bullet>  For example, do you expect that ceremonies welcoming home 
units from deployment will be conducted in the same manner as they are 
today, to include personal displays of affection while in uniform?
    General Chiarelli. Yes, I agree with the Secretary. Standards of 
Conduct will be applied equally to all Soldiers regardless of sexual 
orientation. With exceptions, deployment homecoming ceremonies for 
example, public displays of affection are not permitted while in 
uniform regardless of sexual orientation.
    Mr. McKeon and Mr. Wilson. 6) Secretary Stanley indicated that 
commanders would be able to determine when inappropriate sexual 
behavior was occurring in billeting and will be empowered to restore 
good order and discipline.

    <bullet>  Do you agree that commanders will be able to identify 
such misconduct between gays and lesbians and take appropriate action--
and do all that without disrupting unit cohesion?
    General Chiarelli. Yes. Commanders, through the chain of command, 
are able to identify and correct inappropriate behavior of all kinds 
without disrupting unit cohesion. I do not expect this to change with 
repeal.
    Mr. McKeon and Mr. Wilson. 7) Secretary Stanley was not concerned 
that the involvement of Military Equal Opportunity (MEO) authorities in 
a policy development role will result in MEO procedures being used to 
resolve gay and lesbian harassment and discrimination issues despite 
the DOD commitment to keep those processes separate.

    <bullet>  Are you concerned about MEO processes eventually taking 
over gay and lesbian complaints?
    General Chiarelli. No. Complaints about abusive treatment related 
to sexual orientation will be handled through the chain of command. I 
do not expect there will be a need for any additional adjudication. 
However, the MEO program is a commander's program. MEO advisors can and 
do provide advice and expertise to commanders outside of an EO 
investigation and will continue to do so.
    Mr. McKeon and Mr. Wilson. 8) In response to a question about the 
Administration's decision to not defend the constitutionality of the 
Defense of Marriage Act (DOMA), Secretary Stanley indicated that 
benefits would not be extended to gay and lesbian couples and the law 
would be upheld.

    <bullet>  As prudent managers, are you now considering the 
likelihood that DOMA will be found unconstitutional and developing 
contingencies for how you would extend all family benefits to gay and 
lesbian families?
    General Chiarelli. The Army has been working in conjunction with 
DoD to evaluate the subject of benefits accorded to same-sex couples.
    Mr. McKeon and Mr. Wilson. 9) Secretary Stanley indicated that 
there has been no additional research to better understand the concerns 
about open service of gays and lesbians among service members in ground 
combat units.

    <bullet>  Are you concerned about the attitudes of service members 
in ground combat units and have you made any special effort to 
understand those feelings better and address the issues with 
specifically designed training?
    General Chiarelli. No. The research conducted under the 
Comprehensive Review Working Group was extremely thorough and addressed 
the issues faced by combat units. The standards of conduct are the same 
across the Army regardless of type of unit.
    Mr. McKeon and Mr. Wilson. 10) Are you comfortable that there are 
sufficient procedures for service members to report their concerns 
about problems in their units resulting from the open service of gays 
and lesbians?

    <bullet>  Do service members with concerns understand they have 
access to processes for circumventing commanders who are reluctant to 
take action?

    <bullet>  Are you comfortable that service members believe that 
they can report problems associated with openly serving gays/lesbians 
without fear of retaliation by peers or by superiors?
    General Chiarelli. Yes. The Army does not tolerate harassment, 
discrimination or violence against any Soldier, for any reason. 
Existing mechanisms such as the chain of command, IG, Sexual Assault 
Response Coordinator (SARC) or Unit Victim Advocate (UVA) are available 
for redress of issues based on sexual orientation. False accusations 
are not tolerated and failing to properly address any actionable 
complaints regardless of sexual orientation factors may have 
implications, including:

    <bullet>  Being the subject of an IG investigation

    <bullet>  Being the subject of a complaint of wrongs filed under 
UCMJ Article 138

    <bullet>  Being the subject of a command investigation

    <bullet>  Being investigated for possible criminal misconduct under 
the UCMJ (dereliction of duty)

    A commander's duty is to take appropriate action to ensure mission 
readiness and to maintain good order and discipline in their 
organization and to seek assistance as needed. Feedback is encouraged 
and a mechanism is in place through command channels and with the many 
subject matter experts trained and tasked to assist commanders.
    Mr. McKeon and Mr. Wilson. 11) Have you encountered any complaints 
from service members that the repeal implementation training promotes 
the acceptance of gay and lesbian sexual orientation and, if so, what 
has been your response?
    General Chiarelli. I am aware of one inquiry from the field 
expressing concern that the Army was promoting an ``acceptance agenda'' 
of the GLB lifestyle. However, this particular Soldier had not been 
through training yet and was reacting to something he had read in the 
media.
    The Army reply was: ``Education includes an explanation that the 
application of Army policies will be neutral regarding Soldiers' sexual 
orientation and reinforces that all Soldiers will continue to be 
treated with dignity, respect and professionalism at all times.''
    Mr. McKeon and Mr. Wilson. 12) Secretary Stanley testified that the 
standards clarifying the types of religious and moral statements in 
opposition to homosexuality that would be acceptable for chaplains were 
being developed.

    <bullet>  Do you believe that all service members should be given 
guidelines for the types of statements and activities in opposition to 
homosexuality that would be acceptable and not considered contrary to 
good order and discipline?

    <bullet>  Do you believe that it is important that service members 
have the ability to speak freely in opposition to homosexuality in 
appropriate circumstances and are you confident that effective 
guidelines can be formulated and published?
    General Chiarelli. There will not be any modifications or revisions 
to policy regarding Soldier protections and obligations with respect to 
free speech and free exercise of religion.
    Soldiers can continue to freely practice their religion, consistent 
with military standards of conduct. Soldiers may, in appropriate 
circumstances and within the limitations of law and policy, express 
their moral or religious beliefs regarding sexual orientation. The 
subtlety, nuance, tone and sheer number of statements that might be 
prejudicial to good order and discipline cannot be captured in a list. 
The Army does, however, rely on leadership, professionalism, discipline 
and respect to govern our implementation of the new policies.
    The Army recognizes the right of all Soldiers of the Military 
Services to hold individual beliefs consistent with their moral 
foundations and conscience and does not seek to change them.
    Soldiers can continue to freely practice their religion and express 
their personal views within the limitations of the UCMJ and Service 
standards of conduct.
    Mr. McKeon and Mr. Wilson. 13) Secretary Stanley has indicated that 
the First Amendment freedoms for chaplains will not be impacted by the 
repeal process.

    <bullet>  Are you hearing from chaplains that they fear that repeal 
implementation training is having a chilling effect on chaplain speech 
and that chaplains are afraid to express their true beliefs because 
they will be penalized?

    <bullet>  What procedures will be available to afford chaplains the 
opportunity to report pressures placed on them to temper comments and 
chill their freedom of religious speech and what procedures will be put 
in place to protect such chaplains from punitive career personnel 
actions from supervisors and others who do not share their views?

    <bullet>  Will there be a process to track chaplain complaints 
about religious oppression?
    General Chiarelli. No. I am not aware of any negative effect that 
implementation training is having on our chaplains.
    Chaplains will continue to have freedom to practice their religion 
according to the tenets of their faith. In the context of their 
religious ministry, chaplains are not required to take actions that are 
inconsistent with their religious beliefs (e.g., altering the content 
of sermons or religious counseling, sharing a pulpit with other 
chaplains or modifying forms of prayer or worship).
    Chaplains of all faiths care for all Soldiers and facilitate the 
free exercise of religion for all personnel, regardless of religious 
affiliation of either the chaplain or the individual.
    Chaplains minister to Soldiers and provide advice to commanders on 
matters of religion, morals, ethics and morale in accordance with and 
without compromising, the tenets or requirements of their faith. If, in 
chaplains' discharge of their broader duties within the unit, they are 
faced with an issue contrary to their individual faith, they may refer 
the Soldier to other appropriate counsel.
    Mr. McKeon and Mr. Wilson. 14) Are you concerned that among some 
people that influence the attitudes of recruit candidates that a 
negative view of openly serving gays and lesbians will negatively 
impact recruiting and retention?
    General Chiarelli. No. We have not seen any changes to expected 
recruitment and re-accession patterns.
    Mr. McKeon and Mr. Wilson. 15) Does the need for fairness cause you 
to believe that DOD should provide disability retirement benefits to 
former service members discharged under Don't Ask, Don't Tell who wish 
to return to active duty, but are no longer able to do so because of a 
medical condition?
    General Chiarelli. Lawful standards in effect at the time of a 
Soldier's separation will not be changed with retroactive effect. DoD 
has not authorized compensation of any type for Soldiers separated 
under DADT.

    Mr. McKeon and Mr. Wilson. 1) Secretary Stanley has concluded that 
all the findings in the original law relative to military life and 
readiness remain valid except (13) concerning the longstanding law in 
the unique military culture prohibiting homosexuality and (15) 
concerning the conclusion that homosexuals in the military would create 
an unacceptable risk to morale, good order, discipline, and unit 
cohesion that are the essence of military capability.

    <bullet>  Do you agree with that assessment?

    <bullet>  If findings 13 and 15 are no longer valid, why must we 
develop and implement a training program to prepare the force for the 
repeal of the law? It would seem that if we've ``moved on'' from those 
points that we'd just recognize that fact rather than educate the 
force.
    Admiral Roughead. Yes. I agree with Secretary Stanley's assessment 
that findings 13 and 15 in the original law are no longer valid. As 
with any change in law that affects the military services, there are 
associated changes in policies and instructions. Accordingly, it is 
important for our leaders and Sailors to receive training to ensure 
they understand fully these changes and to reaffirm our guiding 
principles of leadership, professionalism, discipline, and respect. 
This thoughtful, steady approach establishes the foundation for a 
smooth and orderly transition and ensures the force is prepared to 
implement a repeal of the law.
    Mr. McKeon and Mr. Wilson. 2) Secretary Stanley has indicated that 
he agreed with the interpretation that the response on the survey 
``equally as positively as negatively'' was an appropriate indicator 
that the respondent believed that repeal could be implemented without 
adverse impact on readiness. That conclusion is the basis for the 
statistical justification that the force agreed with repeal.

    <bullet>  Do you believe that was an accurate interpretation of the 
response, ``equally as positively as negatively''?

    <bullet>  Do you think the survey would have been better to draw 
more clearly defined negative and positive responses?

    <bullet>  Do you believe the surveys should have simply asked, ``Do 
you believe repeal of Don't Ask, Don't Tell should occur?'' How do you 
think the force would have responded to that question?
    Admiral Roughead. The purpose of the Comprehensive Review Working 
Group's service member survey was to ask Service members about the 
potential impacts of a repeal of DADT to help the military more fully 
understand how a change in the law may impact unit cohesion, readiness, 
effectiveness, recruiting, and retention. The survey did not ask 
service members to express their opinions about whether repeal of DADT 
should occur. This would have been a referendum, and I do not believe 
military policy decisions should be made through a referendum of 
service members. Since the survey did not ask service members whether 
DADT should be repealed, I cannot speculate on how they would have 
responded.
    I believe it is appropriate, from the standpoint of assessing the 
impact of repeal, to consider the ``equally as positively as 
negatively'' responses alongside the ``no effect'' and ``positive'' 
responses. When asked to predict the impact of repeal, I believe a 
response of ``equally as positively as negatively'' supports an 
assessment that repeal can be implemented without adverse impact to the 
force.
    Mr. McKeon and Mr. Wilson. 3) On the issue of collecting data on 
gays and lesbians and behavior that results from open service of gays 
and lesbians, DOD has been adamant that privacy is more important than 
information.

    <bullet>  As a commander charged with the responsibility to 
assessing the success of repeal, how would you evaluate the 
consequences of repeal and protect the rights of gays and lesbians 
without data?
    Admiral Roughead. Sexual orientation is a personal and private 
matter. Sailors will not be required to identify their sexual 
orientation, nor will any such information be collected and maintained 
in a system of records except when incidental to an investigation or 
other official action. We will be able to assess the impact of repeal 
through existing tools, such as anonymous surveys of the force, command 
climate surveys, exit surveys, and recruiting and retention data, none 
of which require the collection of information about an individual's 
sexual orientation.
    Mr. McKeon and Mr. Wilson. 4) Secretary Stanley has indicated after 
a commander takes action to relocate the billeting of personnel because 
of privacy concerns there was no concern that gays and lesbians will 
have then been stigmatized and unit cohesion disrupted.

    <bullet>  Do you agree with that assessment?
    Admiral Roughead. Yes, I agree with Dr. Stanley's assessment. In 
the Navy, we live and work in close-quarters in many of our operating 
environments with individuals from many different backgrounds. 
Commanders have always had the authority to alter berthing or billeting 
assignments for a variety of reasons, on a case-by-case basis, in the 
interest of maintaining morale, good order, and discipline, consistent 
with the performance of the mission.
    Mr. McKeon and Mr. Wilson. 5) Secretary Stanley has indicated that 
there will be no need to change any regulation or cultural behavior to 
restrict heterosexual behavior because of gays and lesbians being 
present in the force.

    <bullet>  Do you agree?

    <bullet>  For example, do you expect that ceremonies welcoming home 
units from deployment will be conducted in the same manner as they are 
today, to include personal displays of affection while in uniform?
    Admiral Roughead. Yes, I agree with Secretary Stanley that no 
changes are necessary. Gay and lesbian Sailors already serve in our 
Navy. I have reviewed our standards of conduct in preparation for 
repeal and confirmed they can be applied without regard to sexual 
orientation. As has always been the case, all Sailors are expected to 
abide by Navy's high standards of personal and professional conduct, 
and leaders are expected to apply these standards uniformly across the 
force. Accordingly, ceremonies welcoming home units from deployment and 
other related activities will be conducted in the same manner as they 
are today.
    Mr. McKeon and Mr. Wilson. 6) Secretary Stanley indicated that 
commanders would be able to determine when inappropriate sexual 
behavior was occurring in billeting and will be empowered to restore 
good order and discipline.

    <bullet>  Do you agree that commanders will be able to identify 
such misconduct between gays and lesbians and take appropriate action--
and do all that without disrupting unit cohesion?
    Admiral Roughead. I agree with Secretary Stanley. As always, 
commanders will continue to be mindful of all behavior that is 
inconsistent with our standards of conduct and have the flexibility and 
authority to resolve issues that fall within their respective areas of 
responsibility. As in all situations, commanders may make reasonable 
accommodations in the interest of maintaining morale, good order, and 
discipline, consistent with the performance of the mission and the 
environment in which we live. I have full confidence in Navy leaders to 
set a positive tone, create an inclusive and respectful environment, 
and continue to enforce our high standards of conduct throughout the 
Navy without disruption to morale or unit cohesion.
    Mr. McKeon and Mr. Wilson. 7) Secretary Stanley was not concerned 
that the involvement of Military Equal Opportunity (MEO) authorities in 
a policy development role will result in MEO procedures being used to 
resolve gay and lesbian harassment and discrimination issues despite 
the DOD commitment to keep those processes separate.

    <bullet>  Are you concerned about MEO processes eventually taking 
over gay and lesbian complaints?
    Admiral Roughead. No. I am not concerned. The Department of Defense 
will not designate sexual orientation as a class eligible for various 
diversity programs, tracking initiatives, and the Military Equal 
Opportunity program complaint resolution processes. I am confident that 
complaints regarding harassment or discrimination based on sexual 
orientation will be effectively addressed through existing mechanisms 
available for other such complaints not involving race, color, gender, 
religion or national origin, to include the chain of command and the 
Inspector General. All service members, regardless of sexual 
orientation, are entitled to an environment free from discrimination 
and harassment. As always, Navy leaders are charged with setting a 
positive tone, creating an inclusive and respectful work environment, 
and enforcing our high standards of conduct.
    Mr. McKeon and Mr. Wilson. 8) In response to a question about the 
Administration's decision to not defend the constitutionality of the 
Defense of Marriage Act (DOMA), Secretary Stanley indicated that 
benefits would not be extended to gay and lesbian couples and the law 
would be upheld.

    <bullet>  As prudent managers, are you now considering the 
likelihood that DOMA will be found unconstitutional and developing 
contingencies for how you would extend all family benefits to gay and 
lesbian families?
    Admiral Roughead. To date, there has been no ongoing planning or 
study conducted by the Navy on the extension of all family benefits to 
gay and lesbian families.
    Mr. McKeon and Mr. Wilson. 9) Secretary Stanley indicated that 
there has been no additional research to better understand the concerns 
about open service of gays and lesbians among service members in ground 
combat units.

    <bullet>  Are you concerned about the attitudes of service members 
in ground combat units and have you made any special effort to 
understand those feelings better and address the issues with 
specifically designed training?
    Admiral Roughead. Throughout this process, I have monitored the 
tone of the force through engagements with officer and senior enlisted 
leadership, all-hands calls with Sailors throughout the Navy, questions 
submitted by Sailors through our repeal website, and command climate 
reports from command leadership teams. We have not experienced any 
special issues during the course of training nor have we observed any 
degradation to readiness for our Sailors assigned to ground combat 
units that would necessitate additional or special training. I am 
satisfied that the combination of comprehensive training, policy 
changes and clarifications, continued respect for the moral and 
religious beliefs of our members, and strong, engaged leadership has 
adequately addressed the concerns of all Sailors.
    Mr. McKeon and Mr. Wilson. 10) Are you comfortable that there are 
sufficient procedures for service members to report their concerns 
about problems in their units resulting from the open service of gays 
and lesbians?

    <bullet>  Do service members with concerns understand they have 
access to processes for circumventing commanders who are reluctant to 
take action?

    <bullet>  Are you comfortable that service members believe that 
they can report problems associated with openly serving gays/lesbians 
without fear of retaliation by peers or by superiors?
    Admiral Roughead. Yes. I am comfortable that there are sufficient 
procedures in place for service members to report their concerns. As 
always, Sailors are expected to abide by Navy's high standards of 
personal and professional conduct. Leaders are expected to apply these 
standards uniformly across the force and hold individuals accountable 
for their behavior. Behavior that is inconsistent with our standards of 
conduct will not be tolerated. Existing policies ensure that all 
service members have multiple avenues through which they can address 
their concerns without fear of reprisal, to include their chain of 
command, legal office, and the Inspector General.
    Mr. McKeon and Mr. Wilson. 11) Have you encountered any complaints 
from service members that the repeal implementation training promotes 
the acceptance of gay and lesbian sexual orientation and, if so, what 
has been your response?
    Admiral Roughead. We have not encountered complaints from service 
members that the repeal implementation training promotes the acceptance 
of gay and lesbian sexual orientation. The training clearly emphasizes 
that no one is expected to change their religious and moral beliefs 
regarding homosexuality after repeal of DADT and as always, Sailors are 
expected to treat each other with professionalism and respect. Feedback 
from our Sailors indicates the training was comprehensive, well-
delivered, and effective.
    Mr. McKeon and Mr. Wilson. 12) Secretary Stanley testified that the 
standards clarifying the types of religious and moral statements in 
opposition to homosexuality that would be acceptable for chaplains were 
being developed.

    <bullet>  Do you believe that all service members should be given 
guidelines for the types of statements and activities in opposition to 
homosexuality that would be acceptable and not considered contrary to 
good order and discipline?

    <bullet>  Do you believe that it is important that service members 
have the ability to speak freely in opposition to homosexuality in 
appropriate circumstances and are you confident that effective 
guidelines can be formulated and published?
    Admiral Roughead. I believe that all Navy personnel should be 
provided with guidance addressing acceptable conduct in the Navy, to 
include speech. As directed by Dr. Stanley, we conducted a review of 
our policies and standards of conduct, and confirmed they provided 
adequate guidance to our personnel. The Navy's DADT repeal 
implementation training clarified Department of Defense policies 
regarding service members' freedom of expression and free exercise of 
religion. Service members can continue to freely practice their 
religion and express their personal views in appropriate circumstances 
within the limitations of the Uniform Code of Military Justice and our 
standards of conduct. As always, Navy personnel may not make statements 
detrimental to good order and discipline and are expected to treat all 
others with dignity and respect.
    Mr. McKeon and Mr. Wilson. 13) Secretary Stanley has indicated that 
the First Amendment freedoms for chaplains will not be impacted by the 
repeal process.

    <bullet>  Are you hearing from chaplains that they fear that repeal 
implementation training is having a chilling effect on chaplain speech 
and that chaplains are afraid to express their true beliefs because 
they will be penalized?

    <bullet>  What procedures will be available to afford chaplains the 
opportunity to report pressures placed on them to temper comments and 
chill their freedom of religious speech and what procedures will be put 
in place to protect such chaplains from punitive career personnel 
actions from supervisors and others who do not share their views?

    <bullet>  Will there be a process to track chaplain complaints 
about religious oppression?
    Admiral Roughead. No, we have not heard concerns expressed by Navy 
chaplains that the DADT repeal implementation training is negatively 
impacting their freedom of religious expression. Prior to the release 
of the Comprehensive Review Working Group's (CRWG) report, some 
chaplains initially expressed concerns about their free exercise of 
religion and free speech post-repeal and the potential for adverse 
personnel actions against chaplains who, consistent with their 
religious beliefs, express opposition to repeal or homosexuality. 
However, these concerns were effectively mitigated by policy guidance 
provided by the CRWG and our associated Tier 1 training for chaplains, 
both of which emphasized that in their preaching, teaching, and 
pastoral care/counsel, chaplains will not be required to take actions 
that are inconsistent with their religious beliefs and that the 
evaluation of chaplain performance will be consistent with these 
policies.
    Existing policies adequately protect chaplains' freedom of 
expression and their ability to discharge their duties of providing for 
and facilitating religious practice within a religiously diverse 
population. As is the case with all Sailors, chaplains have recourse 
through their chain of command or the Inspector General for reporting 
issues of concern. No separate process for tracking chaplain complaints 
is anticipated at this time.
    Mr. McKeon and Mr. Wilson. 14) Are you concerned that among some 
people that influence the attitudes of recruit candidates that a 
negative view of openly serving gays and lesbians will negatively 
impact recruiting and retention?
    Admiral Roughead. No. I assess there will be minimal impact of 
repeal on the attitudes of people who influence recruit candidates. 
According to the Comprehensive Review Working Group (CRWG) survey, 76% 
of Navy spouses reported that repeal of DADT would not affect their 
willingness to recommend military service or would make them more 
likely to recommend military service. Approximately 80% of Sailors 
reported that repeal would not negatively impact their willingness to 
recommend the military to a family member or close friend.
    The Joint Advertising Market Research & Studies (JAMRS) surveys are 
also important sources of information about the attitudes of American 
youth and those who influence the decisions of potential recruits, to 
include parents, grandparents, and teachers, regarding military 
service. According to a JAMRS survey conducted for the CRWG, 70% of 15-
34 year olds reported that repeal of DADT would have no effect on their 
propensity to join the military, while 8% reported that it would 
increase their likelihood of joining. Additionally, 73% of influencers 
reported that repeal of DADT would not affect their likelihood to 
recommend the military.
    To date, we have not observed any impacts to recruiting and 
retention in the Navy related to repeal of DADT.
    Mr. McKeon and Mr. Wilson. 15) Does the need for fairness cause you 
to believe that DOD should provide disability retirement benefits to 
former service members discharged under Don't Ask, Don't Tell who wish 
to return to active duty, but are no longer able to do so because of a 
medical condition?
    Admiral Roughead. No. Navy was following current law when 
discharging members under DADT. All honorably discharged service 
members have an equal opportunity to apply for re-entry. Service 
members separated under DADT will be evaluated according to the same 
criteria and service requirements as all individuals seeking re-entry 
into the military. A former Sailor who applies for re-entry and is 
denied is not entitled to retroactive compensation or retirement 
benefits. Not being able to meet the physical standards required for 
entering the military is not a compensable condition because the 
applicant is not entitled to basic pay at the time of the entrance 
physical examination.
    Disability payments are handled on a case-by-case basis by the 
Veteran's Administration (VA). If prior-service members discharged 
under DADT were rated for a disability by the VA upon discharge, they 
would already be receiving compensation based on the VA rating. If the 
disability was incurred by the member after discharge from the service, 
there is no obligation on the part of the VA to provide disability 
payments.

    Mr. McKeon and Mr. Wilson. 1) Secretary Stanley has concluded that 
all the findings in the original law relative to military life and 
readiness remain valid except (13) concerning the longstanding law in 
the unique military culture prohibiting homosexuality and (15) 
concerning the conclusion that homosexuals in the military would create 
an unacceptable risk to morale, good order, discipline, and unit 
cohesion that are the essence of military capability.

    <bullet>  Do you agree with that assessment?

    <bullet>  If findings 13 and 15 are no longer valid, why must we 
develop and implement a training program to prepare the force for the 
repeal of the law? It would seem that if we've ``moved on'' from those 
points that we'd just recognize that fact rather than educate the 
force.
    General Amos. Based on the training and feedback from my visits 
with commanders and Marines in various organizations and units both in 
the U.S. and overseas, I agree with the assessment. However, agreement 
with the assessment does not obviate training. Educating the force 
ensures that our Marines receive clear guidance from Senior Leadership 
in an area marking significant change to long-standing policy. Similar 
to other topical areas of training, consensus is not the primary factor 
determining its provision. The primary goal of this training is to 
provide our Marines with the tools to maintain good order, discipline 
and unit cohesion while conforming to the law.
    Mr. McKeon and Mr. Wilson. 2) Secretary Stanley has indicated that 
he agreed with the interpretation that the response on the survey 
``equally as positively as negatively'' was an appropriate indicator 
that the respondent believed that repeal could be implemented without 
adverse impact on readiness. That conclusion is the basis for the 
statistical justification that the force agreed with repeal.

    <bullet>  Do you believe that was an accurate interpretation of the 
response, ``equally as positively as negatively''?

    <bullet>  Do you think the survey would have been better to draw 
more clearly defined negative and positive responses?

    <bullet>  Do you believe the surveys should have simply asked, ``Do 
you believe repeal of Don't Ask, Don't Tell should occur?'' How do you 
think the force would have responded to that question?
    General Amos. In my estimation, an answer of ``equally as 
positively as negatively'' would mean the same amounts of support and 
disfavor; hence a neutral position. I believe the survey provided 
adequate information to assess the possible impact to the Marine Corps 
and feel that conjecture on how Marines might have answered 
hypothetical question(s) not on the survey would not be sound or 
advisable due to its speculative nature.
    Mr. McKeon and Mr. Wilson. 3) On the issue of collecting data on 
gays and lesbians and behavior that results from open service of gays 
and lesbians, DOD has been adamant that privacy is more important than 
information.

    <bullet>  As a commander charged with the responsibility to 
assessing the success of repeal, how would you evaluate the 
consequences of repeal and protect the rights of gays and lesbians 
without data?
    General Amos. In my estimation, an answer of ``equally as 
positively as negatively'' would mean the same amounts of support and 
disfavor; hence a neutral position. I believe the survey provided 
adequate information to assess the possible impact to the Marine Corps 
and feel that conjecture on how Marines might have answered 
hypothetical question(s) not on the survey would not be sound or 
advisable due to its speculative nature.
    Mr. McKeon and Mr. Wilson. 4) Secretary Stanley has indicated after 
a commander takes action to relocate the billeting of personnel because 
of privacy concerns there was no concern that gays and lesbians will 
have then been stigmatized and unit cohesion disrupted.

    <bullet>  Do you agree with that assessment?
    General Amos. Yes, sexual orientation is not a relevant factor in 
billeting assignments. Commanders are responsible for maintaining unit 
cohesion, good order and discipline. Commanders who feel it necessary 
to reassign Marines for privacy reasons must properly balance all of 
these interests to eliminate or significantly reduce potential stigma--
for any reason.
    Mr. McKeon and Mr. Wilson. 5) Secretary Stanley has indicated that 
there will be no need to change any regulation or cultural behavior to 
restrict heterosexual behavior because of gays and lesbians being 
present in the force.

    <bullet>  Do you agree?

    <bullet>  For example, do you expect that ceremonies welcoming home 
units from deployment will be conducted in the same manner as they are 
today, to include personal displays of affection while in uniform?
    General Amos. Yes, Marine Corps Standards of Conduct govern the 
behavior of all Marines, regardless of sexual orientation. We will not 
tolerate behavior that detracts from unit cohesion, good order and 
discipline, respect for authority or mission accomplishment. Leaders 
and Marines at all levels have the responsibility to enforce the 
Standards of Conduct. Our Standards of Conduct govern acceptable public 
displays of affection and are addressed in our drill and ceremonies 
manual and our uniform regulations as well as our customs of the 
service.
    Mr. McKeon and Mr. Wilson. 6) Secretary Stanley indicated that 
commanders would be able to determine when inappropriate sexual 
behavior was occurring in billeting and will be empowered to restore 
good order and discipline.

    <bullet>  Do you agree that commanders will be able to identify 
such misconduct between gays and lesbians and take appropriate action--
and do all that without disrupting unit cohesion?
    General Amos. Yes, I remain confident in the leadership of the 
Marine Corps to identify and address unacceptable behavior that 
detracts from unit cohesion, good order and discipline and to take 
appropriate remedial action(s) where required.
    Mr. McKeon and Mr. Wilson. 7) Secretary Stanley was not concerned 
that the involvement of Military Equal Opportunity (MEO) authorities in 
a policy development role will result in MEO procedures being used to 
resolve gay and lesbian harassment and discrimination issues despite 
the DOD commitment to keep those processes separate.

    <bullet>  Are you concerned about MEO processes eventually taking 
over gay and lesbian complaints?
    General Amos. No, I am not concerned. Our commanders may use their 
Equal Opportunity advisors as a source of knowledge in addressing 
complaints, but there are other avenues readily available to all 
Marines to file complaints and to seek redress. Most notable of these 
avenues are service member rights under Article 138 of the Uniform Code 
of Military Justice. Hotline and Inspector General complaint processes 
are also available to service members to address grievances.
    Mr. McKeon and Mr. Wilson. 8) In response to a question about the 
Administration's decision to not defend the constitutionality of the 
Defense of Marriage Act (DOMA), Secretary Stanley indicated that 
benefits would not be extended to gay and lesbian couples and the law 
would be upheld.

    <bullet>  As prudent managers, are you now considering the 
likelihood that DOMA will be found unconstitutional and developing 
contingencies for how you would extend all family benefits to gay and 
lesbian families?
    General Amos. I have not speculated about whether DOMA is 
constitutional. Although I have had discussions about the law, I have 
not directed any planning efforts in anticipation of any potential 
ruling on DOMA. DOMA is the law and the Marine Corps will follow the 
law.
    Mr. McKeon and Mr. Wilson. 9) Secretary Stanley indicated that 
there has been no additional research to better understand the concerns 
about open service of gays and lesbians among service members in ground 
combat units.

    <bullet>  Are you concerned about the attitudes of service members 
in ground combat units and have you made any special effort to 
understand those feelings better and address the issues with 
specifically designed training?
    General Amos. All Marines have received or will receive the same 
training. The Marine Corps is complete with Tier 1 (special staff) and 
Tier 2 (leadership) training. As of 30 June 2011, Tier 3 (Marines) 
training is 95% complete. I recently spoke to commanders on the ground 
in Afghanistan, who indicated that our Marines there are able to 
accomplish their mission and have received sufficient training. Morale 
is high and our deployed Marines have positive attitudes.
    Mr. McKeon and Mr. Wilson. 10) Are you comfortable that there are 
sufficient procedures for service members to report their concerns 
about problems in their units resulting from the open service of gays 
and lesbians?

    <bullet>  Do service members with concerns understand they have 
access to processes for circumventing commanders who are reluctant to 
take action?

    <bullet>  Are you comfortable that service members believe that 
they can report problems associated with openly serving gays/lesbians 
without fear of retaliation by peers or by superiors?
    General Amos. Yes, we will handle concerns regarding sexual 
orientation harassment and abuse through the chain of command, the 
Inspector General and other means established by the services.
    Marines are trained about and are aware of their right to Request 
Mast under the provision of Article 138 of the Uniform Code of Military 
Justice and can contact the Inspector General hotline or communicate 
directly with my staff through Marine Mail--all without fear of 
reprisal.
    Mr. McKeon and Mr. Wilson. 11) Have you encountered any complaints 
from service members that the repeal implementation training promotes 
the acceptance of gay and lesbian sexual orientation and, if so, what 
has been your response?
    General Amos. Overall, the training has been well received without 
complaint. Marines understand that their personal beliefs are not 
required to change. Rather, Marines know that they are to show 
tolerance through treating their fellow service members with 
professionalism, respect and dignity.
    Mr. McKeon and Mr. Wilson. 12) Secretary Stanley testified that the 
standards clarifying the types of religious and moral statements in 
opposition to homosexuality that would be acceptable for chaplains were 
being developed.

    <bullet>  Do you believe that all service members should be given 
guidelines for the types of statements and activities in opposition to 
homosexuality that would be acceptable and not considered contrary to 
good order and discipline?

    <bullet>  Do you believe that it is important that service members 
have the ability to speak freely in opposition to homosexuality in 
appropriate circumstances and are you confident that effective 
guidelines can be formulated and published?
    General Amos. Marine Corps Standards of Conduct govern the behavior 
of all Marines. We will not tolerate behavior that detracts from unit 
cohesion, good order and discipline, respect for authority or mission 
accomplishment. We further will not tolerate harassment or abuse of 
Marines for any reason, and will address all issues of this nature 
accordingly through command or inspector general channels. Leaders and 
Marines at all levels have the responsibility to enforce the standards 
of conduct.
    DoD policies already exist governing all types of appropriate/
inappropriate statements and/or activities which may impact good order 
and discipline, and service members receive instruction in these 
policies. A service member's right of expression is preserved to the 
maximum extent possible in accordance with constitutional and statutory 
provisions and consistent with good order and discipline and the 
national security.
    Mr. McKeon and Mr. Wilson. 13) Secretary Stanley has indicated that 
the First Amendment freedoms for chaplains will not be impacted by the 
repeal process.

    <bullet>  Are you hearing from chaplains that they fear that repeal 
implementation training is having a chilling effect on chaplain speech 
and that chaplains are afraid to express their true beliefs because 
they will be penalized?

    <bullet>  What procedures will be available to afford chaplains the 
opportunity to report pressures placed on them to temper comments and 
chill their freedom of religious speech and what procedures will be put 
in place to protect such chaplains from punitive career personnel 
actions from supervisors and others who do not share their views?

    <bullet>  Will there be a process to track chaplain complaints 
about religious oppression?
    General Amos. No, I am not hearing that. Chaplains can Request Mast 
under Article 138 of the Uniform Code of Military Justice, contact the 
inspector general hotline or communicate directly with my staff through 
Marine Mail, all without fear of reprisal. Additionally, many of these 
procedures are also available through the administrative chain of the 
Navy Chaplain Corps. At this time, I do not anticipate any process for 
tracking chaplain complaints as a result of the repeal of DADT. To my 
knowledge, we have never had reason to track complaints about religious 
oppression of chaplains.
    Mr. McKeon and Mr. Wilson. 14) Are you concerned that among some 
people that influence the attitudes of recruit candidates that a 
negative view of openly serving gays and lesbians will negatively 
impact recruiting and retention?
    General Amos. No, I am not concerned. My experience has been that 
recruiters focus on achieving their mission of obtaining the requisite 
numbers of the best qualified applicants. Moreover, as of 11 July, over 
98 percent (5,038 personnel) of those assigned to Marine Corps 
Recruiting Command (active and reserve) have received appropriate DoD-
directed, DADT Tier level training.
    Mr. McKeon and Mr. Wilson. 15) Does the need for fairness cause you 
to believe that DOD should provide disability retirement benefits to 
former service members discharged under Don't Ask, Don't Tell who wish 
to return to active duty, but are no longer able to do so because of a 
medical condition?
    General Amos. Marine Corps separations are effected according to 
law and applicable implementing regulation and policy. I do not take my 
obligation to follow the law lightly. Nor do I take lightly the impact 
of the change in the law on Marines who have been separated. I am now 
considering factors to determine where true fairness would lie if this 
becomes the situation.

    Mr. McKeon and Mr. Wilson. 1) Secretary Stanley has concluded that 
all the findings in the original law relative to military life and 
readiness remain valid except (13) concerning the longstanding law in 
the unique military culture prohibiting homosexuality and (15) 
concerning the conclusion that homosexuals in the military would create 
an unacceptable risk to morale, good order, discipline, and unit 
cohesion that are the essence of military capability.

    <bullet>  Do you agree with that assessment?

    <bullet>  If findings 13 and 15 are no longer valid, why must we 
develop and implement a training program to prepare the force for the 
repeal of the law? It would seem that if we've ``moved on'' from those 
points that we'd just recognize that fact rather than educate the 
force.
    General Schwartz. Although I agree with Dr. Stanley's assessment, I 
also believe educating the total force is important to explain how the 
repeal of 10 U.S.C. Sec. 654 will be implemented. There is a need for, 
and definite purpose for, the training of our Airmen.
    Mr. McKeon and Mr. Wilson. 2) Secretary Stanley has indicated that 
he agreed with the interpretation that the response on the survey 
``equally as positively as negatively'' was an appropriate indicator 
that the respondent believed that repeal could be implemented without 
adverse impact on readiness. That conclusion is the basis for the 
statistical justification that the force agreed with repeal.

    <bullet>  Do you believe that was an accurate interpretation of the 
response, ``equally as positively as negatively''?

    <bullet>  Do you think the survey would have been better to draw 
more clearly defined negative and positive responses?

    <bullet>  Do you believe the surveys should have simply asked, ``Do 
you believe repeal of Don't Ask, Don't Tell should occur?'' How do you 
think the force would have responded to that question?
    General Schwartz. I agree with Dr. Stanley's interpretation of the 
survey response ``equally as positively as negatively.'' No survey is 
perfect, but I am satisfied the survey was comprehensive and 
informative.
    Mr. McKeon and Mr. Wilson. 3) On the issue of collecting data on 
gays and lesbians and behavior that results from open service of gays 
and lesbians, DOD has been adamant that privacy is more important than 
information.

    <bullet>  As a commander charged with the responsibility to 
assessing the success of repeal, how would you evaluate the 
consequences of repeal and protect the rights of gays and lesbians 
without data?
    General Schwartz. Existing processes for follow-on review and 
monitoring have been used to the maximum possible extent in order to 
minimize potential disruption to the force as a result of new and 
potentially burdensome reporting instruments. Therefore, to 
systematically analyze workforce climate and military effectiveness, 
our intent is to use existing Air Force assessment tools such as 
command climate surveys, the Inspector General's command assessments, 
annual reports on sexual assault prevention and response, unit climate 
assessments, Air and Joint Expeditionary Force tasking surveys, annual 
retention surveys, and other extant mechanisms for feedback from the 
field.
    Additionally, as they always have, commanders at every level assess 
the morale of their personnel through personal assessment and 
observation of unit climate and mission accomplishment.
    Mr. McKeon and Mr. Wilson. 4) Secretary Stanley has indicated after 
a commander takes action to relocate the billeting of personnel because 
of privacy concerns there was no concern that gays and lesbians will 
have then been stigmatized and unit cohesion disrupted.

    <bullet>  Do you agree with that assessment?
    General Schwartz. A commander has the discretion to direct 
billeting and berthing assignments based on a number of factors 
including work schedules, friendships, and compatibility. Because 
commanders already use this discretion to address a number of morale 
concerns, its use to address privacy concerns is not noteworthy.
    Mr. McKeon and Mr. Wilson. 5) Secretary Stanley has indicated that 
there will be no need to change any regulation or cultural behavior to 
restrict heterosexual behavior because of gays and lesbians being 
present in the force.

    <bullet>  Do you agree?

    <bullet>  For example, do you expect that ceremonies welcoming home 
units from deployment will be conducted in the same manner as they are 
today, to include personal displays of affection while in uniform?
    General Schwartz. The Air Force has an instruction on public 
displays of affections that is sexual orientation neutral and simply 
reaffirms the standards we have consistently expected of our service 
members over time. Ceremonies will be conducted in the same manner as 
before, including welcoming home ceremonies.
    Mr. McKeon and Mr. Wilson. 6) Secretary Stanley indicated that 
commanders would be able to determine when inappropriate sexual 
behavior was occurring in billeting and will be empowered to restore 
good order and discipline.

    <bullet>  Do you agree that commanders will be able to identify 
such misconduct between gays and lesbians and take appropriate action--
and do all that without disrupting unit cohesion?
    General Schwartz. I am confident commanders will be able to 
identify misconduct between gays and lesbians as accurately as they do 
between heterosexuals. Our instructions continue to clearly articulate 
the difference between professional and unprofessional relationships, 
and their provisions will continue to be enforced.
    Mr. McKeon and Mr. Wilson. 7) Secretary Stanley was not concerned 
that the involvement of Military Equal Opportunity (MEO) authorities in 
a policy development role will result in MEO procedures being used to 
resolve gay and lesbian harassment and discrimination issues despite 
the DOD commitment to keep those processes separate.

    <bullet>  Are you concerned about MEO processes eventually taking 
over gay and lesbian complaints?
    General Schwartz. No. Long-standing parameters for MEO complaints 
will continue to guide MEO officials to determine, on a case-by-case 
basis, whether equal opportunity implications exist for a particular 
complaint.
    Mr. McKeon and Mr. Wilson. 8) In response to a question about the 
Administration's decision to not defend the constitutionality of the 
Defense of Marriage Act (DOMA), Secretary Stanley indicated that 
benefits would not be extended to gay and lesbian couples and the law 
would be upheld.

    <bullet>  As prudent managers, are you now considering the 
likelihood that DOMA will be found unconstitutional and developing 
contingencies for how you would extend all family benefits to gay and 
lesbian families?
    General Schwartz. In the event that the Defense of Marriage Act 
should be found unconstitutional, we anticipate the Department of 
Defense (DoD) would issue guidance on the extension of family benefits 
to gay and lesbian families. The Air Force would follow DoD guidance.
    Mr. McKeon and Mr. Wilson. 9) Secretary Stanley indicated that 
there has been no additional research to better understand the concerns 
about open service of gays and lesbians among service members in ground 
combat units.

    <bullet>  Are you concerned about the attitudes of service members 
in ground combat units and have you made any special effort to 
understand those feelings better and address the issues with 
specifically designed training?
    General Schwartz. I do not believe additional specific training is 
necessary for Airmen serving in ground combat units. All Airmen are 
trained to treat all others with dignity and respect regardless of 
their duty location.
    Mr. McKeon and Mr. Wilson. 10) Are you comfortable that there are 
sufficient procedures for service members to report their concerns 
about problems in their units resulting from the open service of gays 
and lesbians?

    <bullet>  Do service members with concerns understand they have 
access to processes for circumventing commanders who are reluctant to 
take action?

    <bullet>  Are you comfortable that service members believe that 
they can report problems associated with openly serving gays/lesbians 
without fear of retaliation by peers or by superiors?
    General Schwartz. The Air Force's command channels and Inspector 
General program are well suited to address such complaints. We strive 
for a climate in which all service members will treat each other with 
dignity and respect regardless of sexual orientation, and I am 
confident current procedures will be able to respond appropriately to 
deviations from those standards.
    During training on the repeal of Don't Ask, Don't Tell, for 
example, Airmen are informed they can address complaints through their 
local inspector general's office. This training will also be provided 
to all new accessions.
    Mr. McKeon and Mr. Wilson. 11) Have you encountered any complaints 
from service members that the repeal implementation training promotes 
the acceptance of gay and lesbian sexual orientation and, if so, what 
has been your response?
    General Schwartz. I have not personally received any complaints 
from service members regarding repeal implementation training. The 
training very clearly explains its purpose is to address standards of 
behavior, not to change an individual service member's beliefs.
    Mr. McKeon and Mr. Wilson. 12) Secretary Stanley testified that the 
standards clarifying the types of religious and moral statements in 
opposition to homosexuality that would be acceptable for chaplains were 
being developed.

    <bullet>  Do you believe that all service members should be given 
guidelines for the types of statements and activities in opposition to 
homosexuality that would be acceptable and not considered contrary to 
good order and discipline?

    <bullet>  Do you believe that it is important that service members 
have the ability to speak freely in opposition to homosexuality in 
appropriate circumstances and are you confident that effective 
guidelines can be formulated and published?
    General Schwartz. Current DoD and Air Force policy and regulations 
provide sufficient guidance about service members' protections and 
obligations with respect to free speech and free exercise of religion. 
As part of repeal implementation, service members are receiving 
training on the effect of repeal on individual rights and 
responsibilities. Similarly, our Chaplain Corps will continue to have 
freedom to practice according to the tenets of their respective faiths. 
We do, however, expect our Chaplains to offer general pastoral services 
to all Airmen in need. In the context of their religious ministry, 
chaplains are not required to take actions inconsistent with their 
religious beliefs (e.g., altering the content of sermons or religious 
counseling). Service members--including chaplains--can continue to 
freely practice their religion and express their personal views within 
the limitations of the Uniform Code of Military Justice and service-
specific standards of conduct.
    Mr. McKeon and Mr. Wilson. 13) Secretary Stanley has indicated that 
the First Amendment freedoms for chaplains will not be impacted by the 
repeal process.

    <bullet>  Are you hearing from chaplains that they fear that repeal 
implementation training is having a chilling effect on chaplain speech 
and that chaplains are afraid to express their true beliefs because 
they will be penalized?

    <bullet>  What procedures will be available to afford chaplains the 
opportunity to report pressures placed on them to temper comments and 
chill their freedom of religious speech and what procedures will be put 
in place to protect such chaplains from punitive career personnel 
actions from supervisors and others who do not share their views?

    <bullet>  Will there be a process to track chaplain complaints 
about religious oppression?
    General Schwartz. A limited number of chaplains expressed concerns 
about a chilling effect on religious speech. An April 28, 2010, letter 
signed by 41 retired military chaplains raised concerns within the Air 
Force Chaplain Corps that chaplains' religious liberties, including 
their speech, may be limited.
    Current procedures empower and/or allow chaplains to use their 
functional chain of command to address concerns and issues regarding 
freedom of religious speech. Program Budget Decision 720 established 
the Air Force Chief of Chaplains Plans, Programs, and Budget Division 
(AF/HCX) as reach-back office for all Chaplain Corps issues and 
concerns. Thus, any issues or concerns, including freedom of religious 
speech, can be elevated through major commands to AF/HCX for 
resolution.
    These procedures track freedom of religious speech concerns and, in 
conjunction with other functional communities and ecclesiastical 
endorsing agents, ensure prudent, non-punitive resolution.
    Mr. McKeon and Mr. Wilson. 14) Are you concerned that among some 
people that influence the attitudes of recruit candidates that a 
negative view of openly serving gays and lesbians will negatively 
impact recruiting and retention?
    General Schwartz. It is my assessment the United States Air Force 
can accommodate the repeal of Don't Ask, Don't Tell with modest risk to 
recruiting and retention. We will pay close attention to the attitudes 
of those who influence our recruit candidates for any negative impacts.
    Mr. McKeon and Mr. Wilson. 15) Does the need for fairness cause you 
to believe that DOD should provide disability retirement benefits to 
former service members discharged under Don't Ask, Don't Tell who wish 
to return to active duty, but are no longer able to do so because of a 
medical condition?
    General Schwartz. No. As stated by the Under Secretary of Defense 
for Personnel and Readiness, the Department of Defense is not 
authorized to provide compensation of any type for those service 
members previously separated under 10 U.S.C. Sec. 654. Thus, service 
members previously separated under 10 U.S.C. Sec. 654 who are unable to 
return to active duty due to a medical condition cannot be provided 
disability retirement benefits.

                                  <all>

</pre></body></html>
